United States
Department of
Agriculture     Office of
                Inspector General
Office of
Inspector
General

No. 47

August 2002     Semiannual Report
                to Congress
                FY 2002—First Half
On the cover: The graphics depict “Old Glory,” the American flag; the U.S. Department of Agriculture (USDA) flag; and the Office of
Inspector General (OIG) logo. The design symbolizes the unity of the Nation’s populace with USDA agencies and OIG functions in the
aftermath of the events of September 11, 2001, and the subsequent anthrax attacks.




The U.S. Department of Agriculture prohibits discrimination in all its programs and activities on the basis of race, color, national origin,
sex, religion, age, disability, political beliefs, sexual orientation, or marital or family status. (Not all prohibited bases apply to all pro-
grams.) Persons with disabilities who require alternative means for communication of program information (Braille, large print, audiotape,
etc.) should contact USDA’s TARGET Center at 202-720-2600 (voice and TDD).

To file a complaint of discrimination, write USDA, Director, Office of Civil Rights, Room 326-W, Whitten Building, 1400 Independence
Avenue, SW, Washington, D.C. 20250-9410 or call (202) 720-5964 (voice and TDD). USDA is an equal opportunity provider and
employer.
Contents


OIG in the Post-9/11 World ....................................................................................................................................             1
Summaries of Audit and Investigative Activities ................................................................................................                            5
Homeland Security
   Front-Line Vulnerabilities .....................................................................................................................................         6
   Information Technology .......................................................................................................................................           8
Financial Management and Accountability
   Effective Financial Management ..........................................................................................................................               11
   Financial-Related Audits ......................................................................................................................................         12
Abuse of USDA Programs and Operations
   Protecting the Food Supply .................................................................................................................................            15
   Public Corruption .................................................................................................................................................     16
   Food, Nutrition, and Consumer Services .............................................................................................................                    16
   Food and Nutrition Service ..................................................................................................................................           16
   Food Stamp Program ..........................................................................................................................................           16
   Child Nutrition Programs ......................................................................................................................................         19
   Commodity Distribution Program .........................................................................................................................                20
   Farm and Foreign Agricultural Services ..............................................................................................................                   20
   Risk Management Agency ...................................................................................................................................              20
   Farm Service Agency ..........................................................................................................................................          21
   Foreign Agricultural Service .................................................................................................................................          22
   Natural Resources and Environment ...................................................................................................................                   23
   Forest Service ......................................................................................................................................................   23
   Natural Resources Conservation Service ............................................................................................................                     24
   Rural Development ..............................................................................................................................................        24
   Rural Business-Cooperative Service ...................................................................................................................                  24
   Rural Housing Service .........................................................................................................................................         25
   Research, Education, and Economics .................................................................................................................                    26
   Cooperative State Research, Education, and Extension Service ........................................................................                                   26
Statistical Data
   Audits Without Management Decision .................................................................................................................                    27
   Indictments and Convictions ................................................................................................................................            35
   Office of Inspector General Hotline ......................................................................................................................              36
   Freedom of Information Act and Privacy Act Requests .......................................................................................                             37
Appendix I: Inventory of Audit Reports Issued
 With Questioned Costs and Loans .....................................................................................................................                     38
Appendix II: Inventory of Audit Reports Issued
 With Recommendations That Funds Be Put to Better Use ..............................................................................                                       39
Appendix III: Summary of Audit Reports Released Between
 October 1, 2001, and March 31, 2002 .................................................................................................................                     40
OIG in the Post-9/11 World


On September 11, 2001, everything changed about the           identified the vulnerable areas, we set out to assist the
way we do business in the U.S. Department of                  Department in three clearly defined ways: Securing
Agriculture (USDA) Office of Inspector General (OIG).         USDA materials from becoming potential weapons,
Or did it?                                                    protecting USDA assets that might be potential targets,
                                                              and ensuring that USDA funds are not used to support
Homeland Security                                             terrorist activities.

As detailed in our last Semiannual Report to Congress,        Securing Potential Weapons
the events of September 11 and the subsequent
anthrax attacks gave new urgency to the issues of             During this reporting period, OIG investigators and
security over USDA’s infrastructure and the agricultural      auditors responded quickly to address potential
economy. OIG continues to direct its resources toward         vulnerabilities involving biological agents. In general, we
two fronts—maintaining the integrity of Department            found that USDA’s laboratories needed better plans and
programs and helping the Department strengthen its            procedures for inventory control, physical security,
defenses against activities that might threaten               personnel security, and biosecurity incident response.
Government facilities, production agriculture, and the        OIG currently is reviewing security over other USDA
Nation’s food supply.                                         materials—chemical agents, radioactive materials,
                                                              genetically engineered organisms—that could pose a
This might seem to constitute a radical shift for OIG,        risk either to public health or the economy if used
and our priorities certainly have changed. On closer          inappropriately. We are capitalizing on the experience
inspection, however, OIG essentially is maintaining its       and expertise attained in this area by our past
traditional role. We continue to perform reviews that         investigations of vandalism by ecoterrorists at USDA
involve the Department’s role in protecting the food          facilities.
supply, enhancing cybersecurity, ensuring financial
integrity—this is not the recently discovered terrain of an   We also alerted the Forest Service (FS) to the
alarming new world, but familiar ground OIG has been          vulnerability of its aircraft, including air tankers, as well
patrolling throughout its watch. The intensity may have       as aircraft facilities. We are currently reviewing security
ratcheted up a notch or two and the scope expanded,           over the Forest Service’s explosive material.
but the vision and focus have been steady and level
throughout OIG’s history.                                     Protecting Potential Targets

This is our 47th Semiannual Report to Congress and            OIG provided a law enforcement presence at the 2002
covers the period October 1, 2001, through March 31,          Winter Olympic Games in Salt Lake City, Utah. The
2002. As you will see in the body of this report, we have     mission of OIG was to help protect the food prepared for
been quite active this reporting period in identifying and    the athletes and visitors to the games, the general
examining areas critical to the Department’s and,             public, and USDA personnel and assets on the
ultimately, the Nation’s safety and security. We have         Wasatch-Cache National Forest and around Salt Lake
employed a three-pronged, analytical approach in              City.
focusing our audit and investigative resources in the
post-9/11 world. We started by asking ourselves the           Our work in securing U.S. agriculture began well before
fundamental questions about matters under our                 September 11. We reported last period on the
purview:                                                      Department’s efforts to protect American agriculture
                                                              from the introduction of Foot and Mouth Disease (FMD)
• What could terrorists use as a weapon?                      after an outbreak in the United Kingdom. OIG personnel
• What could terrorists target?                               visited the United Kingdom to gain first-hand knowledge
• What could terrorists use to finance their activities?      of measures needed to investigate criminal activity
                                                              should FMD spread to the United States. This led to
The answers led us to the laboratories, airfields, and        three initiatives: Joining other Federal agencies to form
computers of USDA, the Winter Olympic Games, and              a Federal Law Enforcement Working Group on foreign
electronic money streams that derive from benefits            animal and plant diseases; initiating a Department
programs and could empty into terrorist coffers. After we     Protocols Working Group to develop standardized


                                                                                                                              1
diagnostic and forensic procedures relating to laboratory         Florida. That person reportedly was named as
analyses and investigations of threats against U.S.               Mohammad Atta, one of the masterminds behind the
production agriculture, with the goal of providing USDA           September 11 attacks.
agencies and employees guidance on the appropriate
procedures to be followed in response to such threats;            Joint Task Forces and Outreach
and establishing emergency response teams to
investigate possible criminal activity should outbreaks           Cooperation among law enforcement agencies is
such as FMD occur.                                                essential to respond effectively to terrorism. OIG
                                                                  continues to cultivate and capitalize on its long-
We now are reviewing the Animal and Plant Health                  established contacts and relationships with other
Inspection Service’s (APHIS) agricultural imports                 Federal, State, and local law enforcement authorities to
inspection system for potential areas of misuse,                  protect USDA programs and resources. We take part in
including permits it issues to import or move animal and          many of the 44 Joint Terrorism Task Forces that have
plant pathogens used for research purposes. At the                been established across the country.
same time, we are looking at the Food Safety and
Inspection Service’s (FSIS) reinspection of imported              OIG managers also meet routinely with other USDA
meat and poultry products as they enter the United                agency representatives and draw upon them to share
States, as well as equivalency determinations of foreign          any concerns that arise with homeland security. In
inspection systems in terms of the Hazard Analysis and            conjunction with these contacts, OIG has established an
Critical Control Point System and microbial product               outreach program designed to bring OIG together with
testing.                                                          constituent groups at the State and local levels, both
                                                                  governmental and nongovernmental, to encourage them
The Department’s cybersystems, buildings, utilities, and          to report security issues to OIG. Our goal is to enlist the
transportation networks are also potential targets. We            aid of all USDA employees and agricultural
found that USDA’s plans for infrastructure protection             communities, from managers to the grassroots, in
were properly formulated but incomplete.                          keeping OIG informed of suspicious acts or people. We
                                                                  have met not only with law enforcement and health
Denying Access to Funds                                           officials, but also with industry and farm organizations,
                                                                  as well as regional shipping and trucking associations
To aid the effort to stem terrorist funding, OIG is actively      and the Southeastern Intergovernmental Audit Forum.
supporting “Operation Green Quest,” aimed at freezing             We have received very favorable feedback from these
assets, seizing cash, and launching criminal                      contacts, and they have led to additional liaison work.
prosecutions against those who financially aid and abet
terrorist activities. In this initiative, OIG investigators are   Financial Management and Accountability
working to prevent USDA program funds and assets,
especially proceeds from food stamp trafficking, from             As important as helping protect the Department’s assets
being funneled to terrorists through money-smuggling or           and resources is our traditional work to ensure that
money-laundering schemes. Our emphasis is on                      available resources are being employed with economy,
stopping the use of funds as early as possible in the             efficiency, and effectiveness. In order to be effective,
illicit process.                                                  management must have reliable and timely financial
                                                                  information. The need for this information resounds
Our long and extensive experience in this area has                throughout all of the Department’s activities, from the
enhanced our ability to contribute significantly to this          more obvious stewardship over assets, fiduciary
initiative. Of concern since September 11 are those food          responsibilities, and budgeting, to operational matters
stamp trafficking cases where the money trail has led             such as performance measurement. The Department
overseas or where investigations have revealed a                  must know how much money has been received, spent,
connection to the Middle East. We also found that                 and is needed; where its assets are and when they
terrorists may have tried to use USDA program money               need to be repaired or replaced; and the costs of its
to fund terrorist acts. An alleged Middle Eastern                 operations. Although the Department received a
businessman applied for—and was denied—a USDA                     disclaimer of opinion from OIG for the eighth
loan to buy aircraft and start a crop-dusting service in          consecutive year, the opinions of some of the major


2
entities subject to audit improved in FY 2001. However,        of 2002, which contained such a provision. Another
some opinion improvements came about primarily                 such initiative dealt with the need for authority for the
because of OIG and agency personnel efforts to                 Secretary to list and regulate biological agents and
significantly adjust reported financial data after the end     toxins that potentially pose a severe threat to animal or
of the fiscal year. Unless the accuracy of the underlying      plant health, or the products thereof. This proposal was
financial data of these programs improves greatly, the         incorporated into the Bioterrorism Preparedness Act of
data will still not be useful to the agency managers, and      2002, which became law on June 12, 2002.
such adjustments after the end of the fiscal year may be
necessary again.                                               Business Process Reengineering

Abuse of USDA Programs and Operations                          Gaining economies and efficiencies in our own work is a
                                                               very high priority, as it enables us to maximize our
We worked a number of criminal cases this period that          limited resources. During the last 6 months, we have
addressed the continuing threats to consumers caused           continued the work of reviewing our business processes
when unscrupulous businesses place profit above                and reengineering them to enhance our ability to carry
public safety. These cases involved, among other               out our mission. We believe OIG can audit and
matters, illegal interstate shipment of swine, food            investigate more efficiently if we streamline our
tampering, and the impersonation of a Federal                  processes and employ state-of-the-art information
compliance officer. At the same time, OIG remained             technology (IT). We are progressing rapidly toward a
vigilant in countering public corruption and workplace         detailed strategic plan that will allow us to equip and
violence. Two corruption cases ended in the successful         train our employees and add additional resources, both
prosecution of employees for theft and embezzlement.           human and technological, so that OIG can maintain its
Several food stamp cases yielded significant prison            level of quality, reliability, production, and service in its
terms and millions of dollars in asset forfeiture and          operations. One proposed modernization involves
restitution to the Government. Other investigations of         automated audit work paper files and an electronic case
misappropriation or misuse of USDA funds involved              management system for investigations, which would
crop insurance fraud and farm loan illegalities.               reap significant savings in staff time, as well as review
                                                               and coordination. In addition, we recognize that we
We audited the Risk Management Agency’s quality                need more highly trained and specialized personnel,
control review system and the Farm Service Agency’s            such as computer specialists for cyber investigations
Quality Loss Program. We looked at the Forest                  and systems engineers, as well as auditors and special
Service’s National Fire Plan and continued to monitor          agents well-versed in information technology.
the oversight of land exchanges. We also found that
additional controls are needed in the Conservation             The Outlook
Reserve Enhancement Program. Our ongoing work in
the Business and Industry Loan Program has                     We have identified weaknesses and vulnerabilities in
uncovered significant management control weaknesses.           such areas as security over biological agents at USDA
                                                               laboratories, security over FS aircraft and aircraft
Legislative Review                                             facilities, and security over information technology
                                                               systems and reported them to the Department. The
Pursuant to duties and responsibilities as assigned by         Department is acting to address them and has received
the Inspector General Act, we have also reviewed               $328 million to continue to strengthen homeland
existing and proposed legislation relating to the              security planning and preparedness. The Agricultural
programs and operations of the Department. As part of          Research Service, FSIS, and APHIS are receiving the
such review, we have identified legislative initiatives that   bulk of this funding. OIG will monitor the expenditure of
we determined were important for the Department and            these monies to ensure they are used for homeland
more importantly for the protection of the Nation’s            security purposes.
agricultural sector. One such initiative dealt with
heightened penalties for certain violations of the Plant       Funding for key enhancements the Department has
Protection Act. That initiative came to fruition with the      planned includes $177 million to make physical and
passage of the Farm Security and Rural Investment Act          operational security improvements at critical USDA


                                                                                                                          3
locations; $23 million for USDA’s Plum Island
laboratory; $35 million to strengthen programs to
exclude agricultural pests and diseases at U.S. borders;
$16.5 million to increase monitoring of meat and poultry
operations, and expand technical capabilities; $15.3
million to improve rapid detection of animal diseases
such as FMD; and $43 million in grants and assistance
to States for improved coordination and homeland
security protection and preparedness.

OIG is hopeful that with this significant infusion of
funding the Department will be able to correct
weaknesses identified. As part of our role in securing
American agriculture, we will continue—as always—to
audit the agencies and work with them to ensure that
the necessary corrective actions are taken.




4
    Summary of Audit Activities
Reports Issued .................................................................................................................................................         49
  Audits Performed by OIG ....................................................................................                44
  Evaluations Performed by OIG ...........................................................................                      1
  Audits Performed Under the Single Audit Act .....................................................                             0
  Audits Performed by Others ................................................................................                   4

Management Decisions Made
Number of Reports ............................................................................................................................................           54
Number of Recommendations ..........................................................................................................................                    408

Total Dollar Impact (Millions) .......................................................................................................................... $115.5
  Questioned/Unsupported Costs .......................................................................................... $93.5a,b
  Recommended for Recovery ..............................................................................            $8.8
  Not Recommended for Recovery ........................................................................ $84.7
  Funds To Be Put to Better Use ............................................................................................ $22.1

a   These were the amounts the auditees agreed to at the time of management decision.
b   The recoveries realized could change as the auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded
    as debts due the Department.


    Summary of Investigative Activities
Reports Issued ...................................................................................................................................................      210
Cases Opened ...................................................................................................................................................        239
Cases Closed .....................................................................................................................................................      244
Cases Referred for Prosecution .........................................................................................................................                258

Impact of Investigations
  Indictments ....................................................................................................................................................      213
  Convictions ....................................................................................................................................................      225a
  Searches ........................................................................................................................................................      24
  Arrests ...........................................................................................................................................................   184b

Total Dollar Impact (Millions) .......................................................................................................................... $23.8
 Recoveries/Collections ............................................................................................................ $ 6.7c
 Restitutions ............................................................................................................................. $15.4d
 Fines ....................................................................................................................................... $ 0.8e
 Claims Established .................................................................................................................. $ 0.6f
 Cost Avoidance ....................................................................................................................... $ 0.3g

Administrative Sanctions
  Employees .....................................................................................................................................................        18
  Businesses/Persons ......................................................................................................................................             142

a   Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore,
    the 225 convictions do not necessarily relate to the 213 indictments.
b
    Includes 76 Operation Talon arrests and 108 arrests not related to Operation Talon.
c
    Includes money received by USDA or other Government agencies as a result of OIG investigations.
d
    Restitutions are court-ordered repayments of money lost through a crime or program abuse.
e
    Fines are court-ordered penalties.
f
    Claims established are agency demands for repayment of USDA benefits.
g   Consists of loans or benefits not granted as the result of an OIG investigation.




                                                                                                                                                                               5
Homeland Security


As expressed in our previous Semiannual Report to             agency personnel action for making false reports of
Congress, one of OIG’s chief missions is to ensure the        anthrax hoaxes and food contamination at USDA-
safety of the American food supply and to protect the         inspected plants. Agents also visited over 50 USDA-
U.S. agriculture infrastructure from possible harm due to     operated or -funded laboratories and research facilities
the accidental or intentional introduction of foreign pests   across the United States. The special agents visited the
and diseases. The events of September 11 and the              laboratories and facilities to evaluate the facilities’
subsequent anthrax attacks gave new urgency to the            vulnerability to terrorism, security measures for tracking
issues of security over USDA’s infrastructure and the         and controlling the access of foreign scientists and
agricultural economy. OIG developed a three-pronged,          researchers, and the security and accountability of
analytical approach to focus its audit and investigative      hazardous and pathogenic materials.
resources on USDA assets terrorists could use as
weapons, terrorists might target, or terrorists might use     Florida Business Owner Pleads Guilty in Visa Scam
to finance their activities.
                                                              A former co-owner of a Florida physician recruitment
                                                              company pled guilty in Federal court in December 2001
    FRONT-LINE VULNERABILITIES
                                                              to a three-count criminal complaint, involving fraud in
                                                              obtaining immigrant visas, false statements to a Federal
OIG Agents Active in World Trade Center                       agency, and income tax evasion. This business owner
Counterterrorism Task Forces                                  was involved in a multifaceted scheme that targeted
                                                              foreign physicians holding J-1 Visa status in the United
Following the tragic attack on the World Trade Center         States. A majority of the physicians using this company
on September 11, OIG reassigned a number of special           submitted waiver requests to USDA as part of a process
agents to the New York Counterterrorism Task Force to         allowing them to work in the United States, with the goal
assist in the investigation of the World Trade Center         of gaining permanent resident status in this country. The
attack and related investigations. These agents followed      applications sent to USDA and other Federal agencies
up on bomb threats, interviewed witnesses, surveilled         routinely contained false information, much of it created
subjects and investigated leads involving terrorism           at the recruitment company. This continuing
suspects, conducted numerous interviews of individuals        investigation is being conducted in conjunction with the
on the Federal Bureau of Investigation’s (FBI) watch list,    Florida Department of Law Enforcement, Immigration
and performed whatever tasks were assigned in                 and Naturalization Service (INS), the U.S. Department
responding to the high state of emergency that existed        of Health and Human Services OIG, the State
last fall.                                                    Department OIG, and the Internal Revenue Service
                                                              (IRS).
OIG stationed a special agent at the FBI Strategic
Investigation Operations Center in Washington, D.C., as       Policies and Inventories Needed To Manage
the liaison for all USDA-related inquiries and                Biosecurity at USDA Laboratories
investigative matters, and to coordinate criminal
investigative efforts and intelligence information            USDA performs research in laboratories across the
regarding incidents of domestic and international             country in which it uses and stores biohazardous
terrorism. Across the country, more than 30 special           material—organisms that in the wrong hands could
agents assisted criminal investigative efforts of             pose a risk to human health and agricultural production
multiagency counterterrorism and financial task forces,       in the United States. Beginning in April 2001, we
including “Operation Green Quest,” a multiagency              audited security at these laboratories. As a result of the
national project ordered by President Bush to target          September 11 terrorist attacks, we expanded the scope
businesses sending funds overseas to terrorist groups.        of our audit to include additional locations and
                                                              accelerated the fieldwork, completing it in February
OIG special agents conducted numerous inquiries               2002. The Department previously had emphasized the
involving biological threats at USDA-operated and/or -        protection of laboratory personnel from hazardous
funded facilities, as well as threats made by USDA            material and had issued no policies and procedures for
employees. Many involved anthrax hoaxes. Two                  security at the laboratories or to centralize control of
subjects face potential criminal prosecution and/or           field unit practices involving the use and storage of
                                                              biological agents.

6
Of particular concern was the absence of a consolidated        of particular sensitivity by USDA, whether those
database to identify the location and risk levels of the       pathogens had previously been identified as high-risk or
biological agents at laboratories, as well as the              not. The Department is currently finalizing the policies
appropriate level of security. Although required, not all      and procedures into a Departmental Regulation.
laboratories maintained an inventory of their biological
agents, and few of those inventories maintained were           We recommended that the Department quickly
accurate. At one laboratory, a vial listed in inventory, but   implement the policies and procedures established by
not found in storage, was said to contain about 3 billion      its task force, complete a centralized database of all its
doses of one virus, a pathogen of considerable risk to         biohazardous material, assess the risks associated with
humans and cattle. This laboratory had not updated its         each laboratory site, and determine appropriate security
inventory of high-risk agents since 1997. In addition, this    measures. We also recommended that agencies limit
laboratory had reported that it was no longer working          access to high-risk biohazardous material and that the
with high-risk pathogens, but we found that it continued       Department determine which security background
to store and experiment with two viruses, both                 checks are needed for such access, as well as reduce
considered high-risk by the Department. We did find            the backlog of those checks.
that anthrax was not used or stored in any location not
designated properly.                                           During our audit, additional congressional funding was
                                                               provided to strengthen the Department’s biosecurity at
Security measures at nearly half the 125 USDA                  its laboratories. The agencies generally committed
laboratories located at 91 different sites needed              themselves to perform the needed laboratory-by-
improvement. Some laboratories lacked alarm systems,           laboratory risk assessments and implement the task
security fences, and surveillance cameras. Security            force policy on sensitive pathogens. We are working
upgrades that had been funded were not properly                with the agencies to ensure they perform such
prioritized. For example, the security survey at two           assessments, consolidate their inventories at the
agencies’ collocated laboratories recommended                  agency and Department levels, and implement task
perimeter fencing. However, the higher biosafety level         force policies at all laboratories with biological agents
laboratories for both agencies remained unfenced due           that are considered sensitive, not just those termed
to funding constraints, while the lower level laboratories     “high-risk.”
were fenced. Inadequate access controls allowed
scientists and researchers not involved with USDA              Improvements Needed in Security of FS Aircraft and
research—including non-U.S. citizens—to enter units            Aircraft Facilities
where biological agents were stored. Due to an absence
of departmental policy and a backlog of security               From October 2001 through January 2002, we reviewed
background checks, access to research was routinely            the Forest Service’s security over aircraft, including the
granted to researchers, both domestic and foreign, for         air tankers used for aerial dispersal of flame retardant
whom background checks had not been completed.                 chemicals during firefighting operations. During the
One laboratory considered a visa equivalent to a               peak fire season, FS could have up to 51 large
background check.                                              multiengine aircraft at its aircraft facilities, some capable
                                                               of delivering up to 3,000 gallons of fire retardant at 1
The Department has engaged a contractor to assess              time. We also reviewed physical security at the facilities
laboratory security at selected sites and to develop a         where these aircraft are based.
manual to provide the methodology and framework for
assessing and improving the biosecurity of high-               We determined that FS-owned and -operated aircraft
consequence microbial agents and toxins, both within           were vulnerable to theft. One FS official stated that a
USDA facilities and during the movement of such                qualified pilot could easily steal almost any aircraft in
agents.                                                        America and that aircraft are more easily stolen than the
                                                               average new car with a computerized ignition system.
On November 9, 2001, the Department adopted a set of           Furthermore, FS and contractor aircraft are usually
policies and procedures standards for inventory control,       parked in open areas of public airports. Many of these
physical security, personnel security, and biosecurity         airports are in sparsely populated areas and have
incident response recommended by a task force. The             limited security.
document establishes policy for all pathogens deemed

                                                                                                                           7
Prior to September 11, FS had not assessed the risks of       working with the Federal Aviation Administration and
theft and misuse of its own aircraft, contracted air          contractors on a package of security devices to secure
tankers, or State forestry aircraft, because it did not       both its individual aircraft and the facilities where they
recognize the possibility of such risk. Nor had FS            are based.
provided guidance either to air tanker contractors or to
State officials regarding potential threats against           OIG Provides Law Enforcement Presence at Winter
aircraft.                                                     Olympic Games

Besides using public airports, FS maintains 73 air bases      For well over a year, OIG prepared to provide an active
of its own, used largely at the peak of the fire season.      investigative and intelligence-gathering presence during
During the fire season, air tankers need to be in a           the 2002 Salt Lake City Winter Olympic Games
constant state of readiness in order to respond timely.       (February 8-24, 2002) and worked closely with many
Consequently, there are limits to how the tankers             USDA agencies to help with their preparations. For 6
themselves can be physically secured while on the             weeks, nine OIG special agents worked around the
base. For this reason, FS needs to take a critical look       clock in key positions at the Winter Games to provide a
not only at the security of its aircraft but also at the      law enforcement presence and add their investigative
security of the bases themselves. We found that FS had        expertise in matters affecting USDA. Four OIG agents
not developed minimum standards for securing these            were assigned to the FBI’s Olympic Intelligence Center
bases. Four of the seven air tanker bases we visited          (OIC), while the rest gathered intelligence with other
had only a chain link fence around the compounds and          State, local, and Federal law enforcement officers near
had not secured all the gates. Increased security of the      the Snow Basin Ski Area, on National Forest land. OIG
aircraft facilities would make the aircraft less vulnerable   worked closely with FSIS concerning food safety
to theft or misuse while not interfering with the air         matters and with departmental officials and other USDA
tankers’ ability to respond timely.                           agencies to protect the more than 80 USDA facilities
                                                              located in the Salt Lake City and Wasatch Mountain
We concluded that FS officials should immediately             corridor. OIG agents assigned to OIC responded to
perform a risk analysis, identifying significant threats      hundreds of referrals for information from the FBI.
and potential actions to mitigate those threats. The risk
assessment should be coordinated with risk
assessments to be performed by other Federal, State,
and local partner agencies. FS also needs to develop
minimum security standards for the facilities at which
the aircraft are based and determine which additional
security features are needed to achieve the minimum
standard. Because some of the facilities received
funding under the National Fire Plan, such funding may
be available to improve security at the facilities.

We recommended that FS develop minimum-security
standards for its aircraft and aircraft facilities and
establish a timeframe for meeting the standards. We
further recommended that FS ensure that new air tanker
contracts incorporate appropriate security provisions         OIG special agents provided a law enforcement presence at the 2002
                                                              Winter Olympic Games in Salt Lake City. OIG photo.
prior to award for the fiscal year (FY) 2002 fire season.

FS agreed with our findings and recommendations.               INFORMATION TECHNOLOGY
Since the September terrorist attacks, FS has
recognized the need to develop minimum-security               Communications and IT are among the Department’s
standards and expects to develop them once the                primary assets, and Department computer systems
Department’s Chief of Physical Security completes his         have been a target of hackers in the past.
review of the Forest Service’s aircraft facilities. It is     Consequently, OIG had been involved in strengthening


8
the Department’s security of this technology well before   • Controls Inadequate Over ARS’s IT Resources
September 11. We initiated a multiyear program prior to
the new millennium and intensified our efforts               We identified numerous and significant potential
subsequent to the September 11 attacks. To date, we          weaknesses in the Agricultural Research Service’s
have reviewed, or are in the process of reviewing, nine      (ARS) ability to adequately protect its IT resources
separate IT systems within USDA.                             from potential disruptions at each site we visited.
                                                             These included potential vulnerabilities related to
One of the more significant dangers USDA faces is an         ARS’s IT equipment and networks, as well as
attack, whether by terrorists seeking to destroy unique      weaknesses in ARS’s system security administration.
databases or more typical criminals seeking economic         Because a standard security policy was not in place,
gain. The Department has numerous information assets         ARS’s systems and networks were vulnerable to
that include market-sensitive data on the agricultural       cyber-related attacks. ARS has stated it is committed
economy and commodities, program, signup and                 to resolving the various security issues identified and
participation data, personal information on customers        has initiated actions to resolve the potential
and employees, and accounting data. The dependence           vulnerabilities reported.
on IT and the Internet has exposed USDA’s billions of
dollars in assets and its critical infrastructure to       • Security Over NRCS’s IT Resources
predators who use a new form of weapon against the
Department’s programs and operations. The information        The Natural Resources Conservation Service
and related systems face unprecedented levels of risk        (NRCS) had not updated its agency security program
from intentional or accidental disruption, disclosure,       to reflect its current IT infrastructure or disseminated
damage, or manipulation. Public confidence in the            departmental security policies and procedures to all
security and confidentiality of the Department’s             its offices. It had neither conducted risk assessments
information and technology is essential. While the           or annual security reviews to ensure that the agency
Department has taken positive action by developing a         was in compliance with current security guidelines,
plan to strengthen USDA information security, our            nor determined whether those policies remained
audits continue to identify deficiencies in USDA’s           appropriate. Most of the sites we visited had not
security posture. The following sections depict some of      conducted periodic assessments or established
those deficiencies.                                          security and contingency plans. We identified more
                                                             than 2,500 potential network vulnerabilities. NRCS
Audits To Strengthen USDA’s IT Security                      also needs to improve logical and physical access
                                                             controls, and controls to prevent unauthorized access
• Weaknesses Identified in AMS’s Ability To Protect Its      to critical or sensitive data were inadequate. NRCS
  Critical IT Resources                                      computer operating systems were not capable of
                                                             logging off terminals after a predetermined period of
  Our audit identified numerous potential systems            inactivity, and one location had not established
  weaknesses on the Agricultural Marketing Service’s         controls to detect or prevent unauthorized physical
  (AMS) network that could be exploited both from            access during business hours.
  inside the network and externally through the
  Internet. System configurations or computer settings     • FSA Management Needed To Increase Involvement
  used by AMS unnecessarily increased the risk to the        in Computer Security
  system, and hardware components were added to
  the network without authorization. We recommended          Farm Service Agency (FSA) management needed to
  that AMS strengthen its controls to ensure that only       increase its involvement in computer security to
  authorized users have access to its computer               minimize the threat of penetration of payment and
  systems and that adequate controls are in place over       data systems. We found an FSA computer that was
  the application and operating system change control        used to access prohibited Internet Web sites by the
  process, including supervisory approval, segregation       supervisor of a wiring contractor team. That team had
  of duties, and documentation of testing results.           been left unattended in the office after regular
  Prompt action by AMS has mitigated a majority of the       working hours. We also found logon identification
  weaknesses.                                                numbers shared with visitors and an unexplained


                                                                                                                   9
     extra systems administrator (unlimited access) logon.    made this information available to OIG and requested
     Some sites relied primarily on a single individual for   an audit. Our audit identified material weaknesses in
     systems administration and security.                     the NASS computer network, but nothing came to our
                                                              attention during the review that indicated the security
     We found physical security weaknesses at most            breaches had occurred or that NASS employees had
     sites, including unlockable and unlocked doors and       used the computer weaknesses identified for
     access by too many people to the room housing the        personal gain.
     computer servers, because a division separate from
     the operational division controlled access authority.    The weaknesses we identified included (1)
     Our scans of 121 network components disclosed 252        vulnerabilities on NASS network devices, (2) the
     potential weaknesses that could make FSA systems         need to strengthen its firewall administration and
     subject to attack. Risk assessments were not             security over remote access to its network resources,
     completed at the required intervals, and security        and (3) the need to ensure that only authorized users
     plans did not provide a management structure             have access to its network resources.
     indicating system responsibilities. Moreover,
     contingency planning was treated perfunctorily, and      We recommended that NASS (1) take corrective
     plans were not always updated to reflect significant     actions on the vulnerabilities identified on its network,
     changes or tested annually.                              (2) develop and implement a policy to periodically
                                                              review the firewall configuration and remove or
• Information Security at NASS                                modify firewall rules as necessary, and (3) strengthen
                                                              its logical access controls by reconciling user
     We conducted an audit of information security at the     accounts to authorized users and eliminate the use of
     National Agricultural Statistics Service (NASS).         generic user accounts. NASS has corrected a
     Paper copies of e-mails alleging computer security       substantial number of the problems found, and has
     breaches and the misuse of sensitive NASS                aggressively implemented plans to correct the
     information were provided to NASS management by          remaining areas of concern. We accepted
     NASS employees. NASS managers immediately                management decisions on all recommendations.




10
Financial Management and Accountability


                                                             Various laws mandate the framework for strong financial
 EFFECTIVE FINANCIAL MANAGEMENT
                                                             management. The Department’s achievement of these
                                                             requirements has been lacking, and, as a result,
In order to be effective, management must have reliable      disclaimers of opinion have resulted. For example, the
and timely financial information. The need for this          Federal Managers’ Financial Integrity Act (FMFIA) of
information resounds throughout all of the Department’s      1982 required internal controls to be established to
activities, from the more obvious stewardship over           ensure, in part, that “assets are safeguarded and
assets, fiduciary responsibilities, and budgeting, to        expenditures are properly accounted for.” Office of
operational matters such as performance measurement.         Management and Budget Circular No. 123,
For the Department to properly fulfill its mission and       implementing FMFIA, requires that internal control
otherwise serve the public, it must know how much            systems ensure that “reliable and timely information is
money has been received, spent, and is needed. It must       obtained, maintained, reported, and used for decision
know where its assets are and when they need to be           making.” Further, the Federal Financial Management
repaired or replaced. It must know the costs of its          Improvement Act (FFMIA) of 1996 requires that systems
operations to identify where efficiencies and economies      comply with applicable Federal accounting standards
need to be implemented.                                      and other requirements. Adherence to these legislated
                                                             mandates would greatly enhance the Department’s
Although the Department received a disclaimer of             potential to achieve an unqualified opinion on its
opinion on its financial statement from OIG for the          financial statements, but, even more importantly,
eighth consecutive year, our audit opinions of the           provide agency managers “timely, accurate, and useful
financial statements of some of USDA’s major agencies        financial information” which would enable them to better
did improve in FY 2001. For the most part, however, the      manage the Department’s programs and operations.
overall caliber of financial information did not improve.
The opinion for the Commodity Credit Corporation             Financial Statement Audits
(CCC), for example, came about primarily because of
“heroic” efforts by OIG and agency personnel to              The Chief Financial Officers Act of 1990 and the
significantly adjust the reported financial data after the   Government Management Reform Act of 1994 require
fiscal year actually ended. Improved opinions garnered       USDA to prepare and audit financial statements. We
in this manner can actually confuse the reader of a          disclaimed on the Department’s consolidated
financial statement audit report into concluding accurate    statements for the eighth consecutive year (FY 1994-
and timely financial data was available to managers          FY 2001). We also disclaimed on the Forest Service’s
throughout the year when it was not. As the Comptroller      financial statements for the fifth consecutive year
General recently testified:                                  (FY 1997-FY 2001). The Federal Crop Insurance
                                                             Corporation (FCIC), the Rural Telephone Bank, and
  Irrespective of the unqualified opinions on their          Rural Development received an unqualified opinion on
  financial statements, many agencies do not have            their FY 2001 statements, which means their financial
  timely, accurate, and useful financial information         statements fairly presented their financial position.
  and sound controls with which to make informed             Although CCC received an unqualified opinion on
  decisions and to ensure accountability on an               certain statements, we disclaimed on others. The
  ongoing basis. While agencies are making some              following depict some of the problems:
  progress in obtaining unqualified audit opinions on
  annual financial statements, many of these                 • USDA’s Consolidated Financial Statements for FY
  opinions were obtained by expending significant              2001: Disclaimer of Opinion
  resources on extensive ad hoc procedures and
  making billions of dollars in adjustments to derive          During FY 2001, the Department achieved several
  financial statements months after the end of a               major successes in improving its overall financial
  fiscal year.... The need for such time-consuming             management. Actions by the Office of the Chief
  procedures primarily results from inadequate                 Financial Officer (OCFO) and the National Financial
  financial management systems.                                Center (NFC) enabled us to remove our qualification
                                                               on “Credit Program Receivables, Net” and increased
                                                               the reliability of the “Fund Balance With Treasury”


                                                                                                                  11
     line item (though problems persist in this area). As of     financial statements. FS management had not
     FY 2002, approximately 98 percent (in terms of value        established a reliable and effective business process
     of accounts) of the Department has been brought into        to prepare the financial statements. Internal controls
     the Foundation Financial Information System (FFIS),         over the agency’s financial reporting process were
     mitigating the financial management problems                inadequate, controls were insufficient to safeguard
     reported in the Central Accounting System (CAS).            assets, and financial systems did not substantially
     Only two agencies remain outside FFIS.                      comply with FFMIA. Thus, we concluded the financial
                                                                 statements were unreliable.
     Despite these efforts, we were unable to give an
     opinion on the Department’s FY 2001 financial             • FY 2001 Rural Development Mission Area Financial
     statements. The Department did not submit auditable         Statements: Unqualified Opinion
     financial statements on time, and, based on the audit
     coverage we were able to complete, we concluded             In FY 2001, we issued our first unqualified opinion
     that overall the Department could not provide               since FY 1993 on the Rural Development Mission
     sufficient, competent evidential matter to support          Area’s financial statements. Although Rural
     numerous material line items on its financial               Development’s and the Department’s efforts resulted
     statements.                                                 in substantial progress, the financial management
                                                                 problems were not overcome until substantially after
• FY 2001 CCC Financial Statements: Varying                      the end of the 2001 fiscal year. Accordingly, the
  Opinions                                                       information to manage the programs was not
                                                                 available when it was needed. The unqualified
     We issued an unqualified opinion on CCC’s Balance           opinion was achieved because the financial data
     Sheet, Statement of Changes in Net Position, and            became “fairly presented” only after substantial after-
     Consolidated Statement of Net Costs. However, we            the-fact adjustments. Our audit also disclosed
     disclaimed an audit opinion on the Combined                 several internal control weaknesses, such as
     Statements of Budgetary Resources and Financing.            estimates in budget submissions and the need for
     We continued to find significant errors, which were         improvements in estimating future loan losses, which
     corrected once adjustments were booked, in CCC’s            need to be corrected to foster economy and
     accounting records for its foreign loan accounting          efficiency and ensure the reliability of the financial
     operations and domestic accounting operations. OIG          data in future periods.
     has informed CCC officials in the last seven financial
     statement audits that substantial improvements in
                                                                FINANCIAL-RELATED AUDITS
     financial management, systems, and operations must
     be made, but CCC has not taken sufficient action.
                                                               Federal Financial Management Improvement Act
• FY 2001 FS Financial Statements: Disclaimer of
  Opinion                                                      USDA’s financial management systems, as a whole, do
                                                               not substantially comply with the requirements of FFMIA
     FS was unable to provide sufficient, competent            (i.e., Federal accounting requirements). USDA, as
     evidential matter to support amounts reported in its      required by law, has developed an overall remediation
     FY 2001 financial statements. The agency had not          plan, with detailed plans in effect for Rural
     performed sufficient analyses and reconciliations of      Development, CCC, FS, and OCFO/NFC. The
     its financial system to ensure the accuracy of            Department’s plan is long term in nature. Generally, the
     amounts recorded in the general ledger and the            remedial action implementation dates have been
     subsidiary (detailed) ledgers. Therefore, the             extended an additional year, to the end of FY 2004,
     unaudited financial statements provided to us on          because of the agencies’ inability to comply with
     November 15, 2001, contained numerous errors, and         applicable accounting standards and resolve the
     the accompanying footnotes were incomplete.               Department’s financial management problems. Although
     Significant control weaknesses in the general ledger      the Department has been able to mitigate some of these
     and the subsidiary systems greatly reduced the            systems weaknesses through laborious manual
     reliability of account balances reported on the           intervention, the Department’s inability to achieve an


12
unqualified opinion stems in large part from its             and properly reflects the relative risk and significance of
noncompliance with FFMIA. Ultimately, the goal is that       deficiencies. Rural Development also needs to develop
the Department know whether it has properly accounted        clear and comprehensive control objectives and
for the money it has collected, the cost of operations,      techniques, as well as accompanying review guides,
and assets of well over $100 billion.                        that will adequately monitor the effectiveness of its
                                                             programs. Furthermore, we recommended that Rural
Rural Development’s Compliance With FMFIA                    Development establish risk level assessments for
Reporting Requirements                                       individual control objectives and use them to determine
                                                             the scope of its internal control reviews.
FMFIA requires agencies to evaluate their systems of
internal control, and identify and correct material          Rural Development did not agree that it should develop
weaknesses. We reviewed Rural Development’s                  and implement a definition of material weakness that
process and found that it was not adequate to fulfill the    contains both qualitative and quantitative
requirements. Our review disclosed two primary causal        characteristics. Rural Development contends that it will
factors: the agency had no quantitative criteria on what     consider this action if the departmental guidance is
constitutes a material weakness, and the methodology         revised to require it. We will pursue this matter with the
Rural Development employed to assess internal                Department. Rural Development did agree that it should
controls needed to be expanded and enhanced. As a            develop clear and comprehensive control objectives and
result, the vast preponderance of material weaknesses        techniques that adequately monitor the effectiveness of
reported by Rural Development over the past 10 years         its programs. Rural Development agreed to establish
(20 of 23, or 87 percent) were identified by OIG and the     risk level assessments for individual control objectives
General Accounting Office, not by Rural Development’s        and use them to determine the scope of its internal
self-assessments. Moreover, Rural Development, in the        reviews.
absence of quantitative criteria, opted not to report a
weakness that it identified internally regarding a           Selected IT General Controls at NFC Need
potential shortfall of $850 million needed to ensure that    Strengthening
rural rental housing was safe and sanitary for low-
income residents. In our opinion, this weakness was          NFC’s Application System Division (ASD) maintains the
material and should have been reported. The                  computer applications that process data for the systems
computational model OIG uses to determine materiality        that disbursed or authorized more than $43 billion in
thresholds to guide the conduct of financial statement       salary and administrative payments in FY 2001.
audits generated a materiality level of only $1.2 million    Including USDA, the system provides administrative and
for the Rural Rental Housing Program. In other words,        financial services to more than 120 agencies and
anything in excess of the $1.2 million would be              450,000 employees. NFC application change controls
considered material.                                         were not operating as effectively as needed to ensure
                                                             that all modifications to applications maintained by ASD
The control objectives and techniques to identify            were properly tested and approved prior to
material internal control weaknesses did not include         implementation. This could result in erroneous data
coverage of all significant areas, and Rural                 being processed, which could lead to losses or incorrect
Development assessed only an overall risk level for          outcomes in various payments and accounting systems
each program being reviewed. The lack of risk                that ASD maintains.
assessment for individual controls meant that high-risk
areas would not be reviewed as often as needed, and          We previously reported, and continued to find, that
resources might be disproportionately diverted to low-       modifications were made to application programs
risk areas. Ultimately, OIG’s goal is that managers not      maintained by NFC without adequate authorization and
be forced to make decisions “in the dark” without solid      testing, which resulted in data being processed
financial data.                                              incorrectly. NFC also permits production changes to be
                                                             made through special processing, which allows changes
We recommended that Rural Development develop and            to production data outside the normal methods and
implement a definition of a material weakness that           controls. This increases the risk that production data
contains both qualitative and quantitative characteristics   could be inappropriately modified. We further identified


                                                                                                                      13
weaknesses in other IT general controls specific to the
Special Payroll Processing System (SPPS). For
example, access to SPPS and other information in the
production payroll/personnel databases was not
adequately restricted, and we noted security gaps.

We recommended that NFC establish controls and
guidance to ensure that user approval is obtained for
functional requirements documents, software testing is
adequately documented, and acceptance testing is
performed for application changes.




14
Abuses of USDA Programs and Operations


                                                             Fast Food Customer Tampers With Take-Home
 PROTECTING THE FOOD SUPPLY
                                                             Product

One of the primary challenges facing USDA is to protect      In Tennessee, an OIG investigation resulted in a
U.S. agriculture and ensure safe and wholesome meat          customer of a retail fast food chicken restaurant
and poultry. OIG’s work ranges from detecting criminal       admitting that she had violated Federal antitampering
smuggling of plants, animals, vegetables, fruits, and        laws by placing prescribed medications within the take-
meats from overseas to investigating reports of illegal      home product she had purchased in February 2000.
activity at meat and poultry processing plants to            She falsely reported to the restaurant and local police
following up on reports of adulterated products in stores.   that she found the medications when she bit into the
We also can never ignore the continuing threats to           product. In December 2001, she was placed in a pretrial
consumers caused when some unscrupulous                      diversion program and received 18 months’ probation.
businesses place profit above public safety, failing to
report and destroy food contaminated by dangerous            Individual Impersonates FSIS Compliance Officer
pathogens or even actively adulterating food to increase
their profit. The following are cases OIG has pursued.       In June 1998, an individual purporting to be a USDA
                                                             Federal compliance officer conducted bogus inspections
Hog Dealer Pleads Guilty to Illegal Interstate               at two retail facilities in Kentwood, Michigan. The
Shipment                                                     individual demanded to inspect pizza being sold to the
                                                             general public and made threats of closing down the
A Tennessee hog dealer pled guilty in March 2002 to          businesses for selling products in violation of USDA
Federal wire fraud and false statement charges relating      regulations. Specifically, he contended the
to his 1997 sale and transportation of over 2,000 swine,     establishments were selling pizza with a meat topping
worth more than $200,000, to buyers in California who        that was not from a USDA-inspected source.
had been assured that the swine originated in                Investigators determined that the imposter was a
Tennessee, which is free of the pseudorabies virus. The      contract employee of a federally inspected
dealer, in fact, had shipped the swine from several other    establishment in Detroit, and the inspections were a
States that were under Federal restrictions on the           scare tactic by the company to regain accounts lost to a
interstate shipment of hogs due to outbreaks of the          competitor. The subject admitted to conducting the
virus. A Tennessee Doctor of Veterinary Medicine is          fraudulent inspections in violation of the law and agreed
awaiting trial on charges that he assisted the hog dealer    to participate in a pretrial diversion program for 1 year.
by preparing fraudulent Tennessee health certificates
for the interstate shipments. Sentencing of the hog          Dairy Pays $650,000 in Milk Adulteration Case
dealer is scheduled for later this year.
                                                             In October 2001, a Virginia dairy agreed to a pretrial
Officers of Meat Company Plead Guilty to Wire                diversion in which it would pay $650,000 in restitution,
Fraud Charges                                                following a joint investigation by OIG and the U.S. Food
                                                             and Drug Administration’s Office of Criminal
The former president and the former comptroller of a         Investigations. On occasion, the dairy was not properly
company with offices in New Jersey and Florida, which        testing milk for the presence of antibiotics in bulk milk
sold meat to domestic and foreign buyers, have pled          tanker trucks that delivered raw milk for processing,
guilty to wire fraud charges relating to false information   and, as a result, 2 percent milk fat and whole milk
that the company provided to a lender. Of specific           products containing antibiotics were shipped in
concern were false inventory claims concerning more          interstate commerce. Random sampling conducted by
than 480,000 pounds of beef trimmings, fat, and other        the Tennessee Department of Agriculture detected
by-products that were relabeled, creating the impression     antibiotics in milk packaged by the dairy, which
the boxes contained premium meat. The value of this          voluntarily recalled 2 percent milk fat products.
meat inventory was reported by company officials to be       However, the company failed to recall all the whole milk
approximately $4.9 million, when the true value was as       products adulterated by antibiotics. The adulterated milk
little as $90,000.                                           caused no known illness or injuries. In addition to the
                                                             restitution, the agreement required the dairy to


                                                                                                                    15
implement an intensive monitoring and education               program of mental health treatment specifically
program to ensure that antibiotic-tainted milk is detected    addressing anger management and conflict resolution.
and destroyed.                                                From March 1994 to June 1997, the employee used the
                                                              office IMPAC Visa charge card to make at least 75
                                                              unauthorized personal purchases at 13 separate retail
 PUBLIC CORRUPTION
                                                              establishments, totaling approximately $14,000. Before
                                                              sentencing, she retired from her position in Government
Another continuing priority for OIG is the investigation of   service.
criminal acts committed by USDA employees. We have
identified approximately 55,000 USDA employees                Guilty Plea by Individual Posing as USDA Employee
whose positions place them in direct contact with the
public. The percentage of wrongdoers is small, but to         A Washington, D.C., man has signed a plea agreement
maintain the public trust, internal controls must be in       admitting to a scheme in which he represented himself
place and operating. During the past 6 months, public         and others as USDA employees in April 2001 in order to
corruption investigations resulted in 5 convictions of        defraud hotels and limousine companies of $23,000 in
current or former USDA employees and 18 personnel             services. The defendant committed wire fraud in
actions. Descriptions of some recent investigations           carrying out the scheme by obtaining the USDA logo
follow.                                                       from the USDA Web site, using it to create USDA
                                                              letterhead, and arranging direct bill credit by using
Former FS Technician Sentenced for Theft                      telephones and faxes. The defendant is on Federal
                                                              probation for like offenses in the past and is being held
A former FS communications technician in the State of         for trial on similar charges in Georgia. The defendant
Washington has been sentenced to 18 months in                 will be arrested on a Federal warrant upon release in
prison, to be followed by 2 years’ probation, fined           Georgia.
$3,000, and ordered to pay $4,000 in restitution after
pleading guilty to theft of Government property. The
                                                               FOOD, NUTRITION, AND CONSUMER
employee illegally obtained radio and electronics
                                                               SERVICES
equipment from the Defense Reutilization and
Marketing Office (DRMO) in Fort Lewis, Washington,
and resold some of the equipment for personal gain.
                                                               FOOD AND NUTRITION SERVICE (FNS)
Our joint investigation with FS Law Enforcement and
Investigations agents disclosed that, from the early
1990s until 2000, the employee screened and acquired          FNS administers the Department’s food assistance
over $9 million worth of Federal excess property from         programs, which include the Food Stamp Program
DRMO. DRMO property worth approximately $1.5                  (FSP); the Child Nutrition Programs (CNP); the Special
million and FS property worth more than $150,000,             Supplemental Nutrition Program for Women, Infants,
mostly radio equipment and related parts, were                and Children (WIC); and the Food Donation Programs.
recovered from the employee’s residence in August             The bulk of FNS’ $38 billion funding for FY 2002 goes to
2000. The employee, an amateur radio operator,                FSP ($22.9 billion), CNP ($10.3 billion), and WIC ($4.5
admitted to having sold some of the equipment for             billion).
personal gain.
                                                               FOOD STAMP PROGRAM
Administrative Support Assistant Pleads Guilty to
Embezzlement of Public Money
                                                              Monitoring of the Electronic Benefits Transfer (EBT)
A former administrative support assistant for APHIS           System Continues
Plant Protection and Quarantine in Niles, Michigan, pled
guilty to one count of embezzlement of public money.          Currently, 43 States and the District of Columbia use
She was sentenced to 3 years’ probation, 4 months’            EBT systems to deliver food stamp benefits. Forty of the
home detention, and 300 hours of community service,           systems have been implemented statewide, including
and ordered to pay restitution of $14,000 and a $100          the District of Columbia. About 84 percent of all FSP
special assessment fee. She must also participate in a        benefits are being issued via EBT.

16
This reporting period, we found that FNS’s oversight of                when recipients left the project area, and recipients
New York’s EBT system and operations was adequate                      were not notified of the State’s policy to expunge
overall. However, controls over system access, use of                  benefits after 270 days of inactivity. FNS and the State
management reports, and recipient access to benefits                   agency are implementing corrective actions.
needed improvement. The State agency had not
established adequate controls over EBT system access                   Three Will Serve Prison Time in $15.3 Million Food
and use of system access reports, resulting in an                      Stamp and WIC Fraud Case
increased risk of unauthorized access to EBT benefits.
EBT management reports were not effectively used by                    Two individuals in Cleveland, Ohio, pled guilty to $3.5
the State to monitor the EBT system, which could result                million in food stamp and WIC fraud and were each
in suspicious EBT activity not being detected and                      sentenced to serve 3-1/2 years in prison. The wife of the
researched. Contrary to FSP regulations, the State                     main subject also pled guilty to a misdemeanor count of
agency did not convert FSP benefits to cash or coupons                 food stamp trafficking and agreed to voluntary lifetime




                                                                       This house, with an estimated value of more than $300,000, was
                                                                       seized under asset forfeiture statutes in the Cleveland case. OIG
More than $15 million in food stamp and WIC fraud originated from
                                                                       photo.
this store in Cleveland. OIG photo.




This toolbox filled with more than $400,000 in cash was seized under   This house was also seized for asset forfeiture in the Cleveland case.
asset forfeiture statutes in the same case in Cleveland. OIG photo.    OIG photo.



                                                                                                                                           17
debarment from participation in both programs. These         redeemer in North Carolina. The store deposited
three individuals forfeited approximately $2.5 million in    $542,000 in WIC benefits and $176,550 in EBT benefits
assets, including cash, vehicles, bank accounts, real        over 3 years from 1998 through 2000. Multiple
estate, and store assets. The group was estimated to         undercover transactions involving WIC vouchers and
have committed over $15.3 million in food stamp and          EBT cards led to a 329-count indictment, as well as
WIC fraud since 1995. Two other indicted co-                 seizure of bank accounts, cash, and an automobile in
conspirators fled and remain fugitives. This investigation   May 2001. All three defendants have now pled guilty
was worked jointly with the U.S. Secret Service, the FBI,    and received sentences ranging from 24 to 38 months
the IRS, the INS, the U.S. Customs Service, the U.S.         in jail during this reporting period. Restitution was set at
Postal Inspection Service, the Cleveland Police              more than $553,500. Two of the defendants face
Department, the Ohio Department of Taxation, and the         deportation upon completion of their prison terms.
Ohio Department of Public Safety.                            Additional defendants are to be indicted. OIG, the IRS,
                                                             and the Greenville, North Carolina, Police Department
Illegal FSP Redemption Case Yields $4 Million                investigated this case jointly.
Restitution, Prison Sentence
                                                             Family Members Go to Federal Prison for Food
The husband and wife owners of a grocery store in New        Stamp Trafficking
York City were ordered to pay $4 million in restitution to
USDA following their guilty pleas to charges of making       Five family members, who owned several grocery
illegal food stamp redemptions and committing theft of       stores in the Fort Worth, Texas, area, received Federal
public funds. The couple reported to State and Federal       prison terms ranging from 8 to 46 months for food
agencies that their grocery store had revenues of            stamp EBT trafficking and conspiracy. The family is
between $500,000 and $600,000 when they actually             estimated to have committed more than $1 million in
redeemed well over $2 million in food stamps in 1995         food stamp fraud from December 1996 through April
and 1996. The couple also trafficked food stamps during      1999 by illegally trafficking in EBT benefits at four
undercover operations. The husband was sentenced to          grocery stores they owned. The subjects were ordered
13 months in prison and the wife to 3 years’ probation.      to pay restitution totaling $1.3 million. This investigation
                                                             was conducted jointly with the IRS.
$2.6 Million Restitution Ordered in EBT Fraud
                                                             Owner Pleads Guilty in $300,000 EBT Fraud
The owner and an employee of an authorized produce
truck that serviced the Philadelphia, Pennsylvania, area     In February 2002, the owner of a small authorized store
pled guilty to food stamp access device fraud and            in Chester, Pennsylvania, pled guilty to EBT trafficking
related charges for food stamp EBT trafficking from May      and was sentenced to 8 months’ home confinement and
1998 through November 1999. The owner was                    ordered to pay more than $167,000 in restitution. The
sentenced to 9 months’ imprisonment, as well as              owner illegally purchased more than $300,000 in EBT
3 months’ home confinement, and ordered to pay               benefits. Approximately 750 food stamp recipients who
$1.3 million in restitution. The employee was sentenced      exchanged EBT benefits for cash with the owner were
in January 2002 to 6 months’ home confinement with 5         referred to the Pennsylvania OIG for further action.
years’ probation and ordered to pay $1.3 million in
restitution. Approximately 200 food stamp recipients         Operation Talon Arrests Continue
who exchanged EBT benefits for cash with the owner
and his employee were referred to the Pennsylvania           Operation Talon was designed and implemented by
OIG for further action. This investigation was worked        OIG to locate and apprehend fugitives who are food
jointly with the IRS.                                        stamp recipients. As of March 31, 2002, Operation
                                                             Talon had resulted in 7,981 arrests of fugitive felons
Three Brothers Arrested in WIC and EBT Fraud                 during joint OIG, Federal, State, and local law
                                                             enforcement operations throughout the country. Serious
As reported in a previous period, three brothers were        crimes perpetrated by those arrested include homicide-
arrested after OIG agents executed search warrants at        related offenses (murder, attempted murder,
their residence and store, identified as the highest WIC     manslaughter), sex offenses (child molestation, rape,


18
attempted rape), kidnapping/abduction, assault,            (NSLP) in a manner that provided for open and free
robbery, and drug/narcotics violations.                    competition. It did not solicit or request bids for certain
                                                           food and nonfood products from manufacturers but
Florida Needs To Improve Corrective Action                 purchased those items from their contracted service
Process                                                    provider. The cooperative purchased numerous food
                                                           and nonfood products from its service provider that
We evaluated Florida’s corrective action planning for      were not included on the secondary bid list of the
reducing food stamp payment error rates and its            request for proposal, an unacceptable practice. From
management of food stamp claim activities for FYs 1999     July 1 through October 31, 2000, it purchased over
and 2000. In FY 1999, the State’s error rate was 9.43      $408,000 in food and nonfood products from its service
percent, equating to $76 million of improperly issued      providers without regard to open and free competition.
food stamp benefits. Although the average caseload per     FNS agreed with our recommendation to recover the
eligibility worker had declined 39 percent since FY        money.
1996, the error rate had not significantly decreased.
                                                           State Agencies Did Not Ensure Required CACFP
The State’s plans did not contain mandatory elements       Audits Were Completed
and components to detail deficiencies, corrective
actions, and results. The plans were generally “to         From our review of FY 2000 and FY 2001 (through
continue” the same actions year to year with “ongoing”     March 31, 2001) activities, we determined that neither
completion dates. The State also had not taken actions     the Michigan nor Ohio State agencies had tracked the
to improve its claim management activities. In January     sources of all Federal funding received by participating
1994, we reported that the State did not timely process    nonprofit institutions. Thus, the States could not confirm
claim referrals—resulting in a 7-year backlog—or           that all single audit requirements were being met by
require recoupment of some established claims from         institutions that received over $97 million in Child and
households. These conditions had not been corrected.       Adult Care Food Program (CACFP) funding. No one in
                                                           Michigan or Ohio had been assigned to determine
We estimated that, as of July 2000, almost 29,000 new      which subgrantees in CACFP should receive a single
claims, valued at $14.7 million, were backlogged, and      audit based on funding received from all Federal
more than 13 years would be needed to establish the        sources. CACFP program agencies were tracking single
claims unless additional resources are employed. The       audit performance of their subgrantees only when
State did not always code claims for allotment reduction   CACFP funding exceeded $300,000. In neither State
or enter them into the system so that recoupment could     did program agencies determine single audit
take place, resulting in 5,041 claims, valued at $1.1      compliance when CACFP funding was less than
million, not being recouped. The State also understated    $300,000. FNS and the State agencies have initiated
its claims receivable balance reported to FNS by about     corrective actions to address the deficiencies.
$1.7 million. FNS has instructed the State to undertake
the necessary corrective actions.                          CACFP Sponsor Claimed Improper Costs,
                                                           Inadequately Monitored Centers
 CHILD NUTRITION PROGRAMS
                                                           A CACFP sponsor in Wisconsin inflated administrative
                                                           costs during FYs 2000 and 2001 by entering into less-
Cooperative Buying Group Did Not Comply With               than-arms-length leases for kitchen equipment, delivery
Federal Competition Regulations                            vans, and rental space. Although regulations limit costs
                                                           in transactions where one party is able to substantially
School districts join together to establish large          control the other, the sponsor leased its own equipment
cooperative buying groups to realize cost savings,         back from its fully owned subsidiary at rates that would
quality, and consistency of food products. Our review of   nearly double the cost of the equipment over the terms
three cooperatives in two States from August 2000          of the leases. The corporation, from which the sponsor
through May 2001 disclosed that one group in North         leased its office space, shared its officers and board of
Carolina did not always conduct procurement                directors with the sponsor and charged the organization
transactions for the National School Lunch Program         rental fees that were higher than comparable costs. If


                                                                                                                    19
allowed to run their full terms, the leases will cost the
                                                              FARM AND FOREIGN AGRICULTURAL
program about $359,000 in excess costs for the vans
                                                              SERVICES
(5-year lease) and equipment (10-year lease) with an
additional $924,000 for the rental space (7-year lease).
Funds to be put to better use totaled nearly $1.3 million.
                                                              RISK MANAGEMENT AGENCY (RMA)
The sponsor also did not perform 112 of the 393
monitoring site visits required by regulations for FY        RMA administers the Federal Crop Insurance
2000. Because of inadequate monitoring by the                Corporation and oversees all programs authorized
sponsor, 13 of the 26 child care centers we visited          under the Federal Crop Insurance Act. RMA’s 2001
claimed excessive meals for reimbursement, more than         crop-year liability exceeded $36 billion. FCIC is a wholly
3,100 meals during May 2000 were served to ineligible        owned Government corporation that offers subsidized
children, and 1 center claimed lunches for school-age        multiple-peril and revenue crop insurance through a
children who did not participate in the lunch meal           private delivery system by means of insurance
service. Excessive reimbursements for the months we          companies. Its FY 2001 Government cost, after
reviewed totaled $8,800.                                     producer-paid premiums of $1.3 billion, is estimated at
                                                             $3 billion.
FNS and the State agency officials generally agreed
with the findings and recommendations.                       Reliable QC Review Process Needed To Evaluate
                                                             Crop Insurance Program
 COMMODITY DISTRIBUTION PROGRAM
                                                             From May 2000 through April 2001, we reviewed RMA’s
                                                             quality control (QC) review system and found that RMA
Food Vendor and Employee Defraud USDA                        continues an 8-year struggle to develop and implement
Commodity Recipient                                          a reliable system capable of evaluating private sector
                                                             delivery of Federal crop insurance. Until RMA answers
The executive director of a soup kitchen—which served        basic policy questions (what constitutes an error, the
both as a food distribution center for the underprivileged   amount of improper payments made, at what level
and as a branch of a ministry in Detroit, Michigan—          program delivery should be assessed) and implements
conspired with a food vendor to defraud the                  a long-term plan of action, it may continue to expect the
organization. The food kitchen relies primarily on private   Federal Crop Insurance Program to suffer from
donations, although it also receives USDA commodities        unreported errors and abuses, as well as frequently
and Federal Emergency Management Agency grants.              undetected dollar losses. Consequently, an effective QC
Specifically, the soup kitchen employee requested the        review system must be in place to ensure
vendor to supply false and inflated invoices for food he     implementation of the Agricultural Risk Protection Act of
delivered daily to the ministry. The vendor agreed to        2000 and is critical under the requirements of the
“kick-back” cash to the employee when he was paid for        Government Performance and Results Act (GPRA).
the invoices. In October 2001, the soup kitchen              RMA did not identify the absence of a reliable QC
employee pled guilty to program fraud and was                review system as a material internal control weakness
sentenced to 14 months in prison and ordered to pay          in its FMFIA report.
restitution of over $828,000. The vendor pled guilty to
the same charge in January 2002 and was sentenced to         The crop insurance delivery system relies on the private
24 months in prison and ordered to pay restitution jointly   insurance companies as the first line for QC, but we
and severally with the coconspirator. This investigation     were not able to identify an industrywide standard or
was worked jointly with the U.S. Postal Inspection           one suitable model. However, one based on FNS’s
Service, which initially received a Whistleblower            system could prove satisfactory, as FNS relies on
complaint about the scheme.                                  States to measure the accuracy of their own
                                                             performance, tests samples to verify measurements,
                                                             and most importantly, holds States accountable for their
                                                             performance through sanctions or requiring that States
                                                             invest their funds to correct their weaknesses.


20
We recommended that the RMA Administrator seek              Insurance Company Pays Treble Damages and
legislation to mandate a QC review system to evaluate       Penalties for False Claims
private sector delivery of the Federal Crop Insurance
Program, implement basic program policy decisions to        In October, a large issuer of multiperil crop insurance
include meaningful performance measures, and develop        policies in Minnesota settled with the United States for
a long-term QC plan of action. We also recommended          payment of false claims submitted by a loss adjuster
that RMA define and describe its QC system                  employed by the company. The insurance company
authoritatively by regulation and report the absence of a   became aware of allegations that the claims were
reliable system as a material internal control weakness     fraudulent but did not report the suspected fraud to
under FMFIA.                                                RMA. The insurance company agreed to pay treble
                                                            damages and six civil penalties under the False Claims
RMA believes that a legislative process is lengthy and      Act, totaling more than $323,600. The settlement
time-consuming and has proposed to award a contract         agreement also included a Corporate Compliance Plan,
to study its delivery process and the underlying            which required the company to establish a special
agreement. RMA also plans to study and analyze its          investigative unit that functions independently of the
contractual agreements for program delivery, which          company’s crop insurance division to investigate
includes the QC system, and has indicated that the new      allegations of fraud, regularly provide RMA data on crop
system will include goals and objectives to evaluate        insurance claims that appear to be fraudulent, develop
performance and measure results. RMA agrees that            and provide annual fraud prevention training to
improvements can be made to the current system but          employees, and promptly take all corrective action when
disagrees with reporting its unreliability as a material    notified by USDA of any violation of crop insurance
weakness. We maintain our opinion on that matter and        program regulations.
continue to work with the agency to resolve the issue.
                                                             FARM SERVICE AGENCY
False Crop Insurance Claims Net Prison Terms for
Producers
                                                            FSA supports American agriculture and the American
As reported in a previous period, at least six producers    public through agricultural commodity, farm loan,
and a crop insurance adjuster in Texas conspired to         conservation, environmental, and emergency
submit false claims in 1999 to RMA regarding over           assistance, as well as domestic and international food
20,000 acres of cotton and grain sorghum,                   assistance programs. The FY 2002 budgeted program
subsequently receiving over $1.1 million in insurance       level for FSA is estimated at over $26 billion, including
indemnities. Four producers and an insurance adjuster       more than $21 billion for operations funded by the
have now been remanded to Federal prison for periods        Commodity Credit Corporation, a Government
ranging from 12 to 24 months, and restitution of more       corporation.
than $685,000 has been ordered.
                                                            FSA Implementation of QLP Was Generally Effective
Producer Receives Prison Term for Crop Insurance
Fraud                                                       The Quality Loss Program (QLP) was a supplemental
                                                            quality program enacted in 2001 to provide assistance
As reported in a previous period, a Texas producer and      to producers where 2000 Crop Disaster Program (CDP)
his wife, an insurance agent, conspired with others to      quality payments were inadequate or nonexistent.
conceal true ownership in various crops in order to         Quality payments earned under CDP were subtracted
avoid paying the higher insurance premiums of the           from QLP and QLP–Apple and Potatoes (QLP-AP)
Nonstandard Classification System. The producer has         payments. Our fieldwork, conducted from August to
now been sentenced to 33 months in Federal prison,          December 2001, concluded that FSA procedures
followed by 3 years’ supervised release, ordered to pay     generally were effective in administering QLP and QLP-
restitution of nearly $600,000, and fined $10,000. The      AP. Although FSA’s acceptance testing disclosed minor
producer is barred from participating in USDA programs      formatting problems with program software, we did not
until the conclusion of his sentence. His wife received a   identify any resultant payment or production calculation
similar sentence.                                           irregularities. Crop insurance linkage requirements were


                                                                                                                    21
met by 2000 CDP applicants, and FSA outreach efforts         contracts” to cover the CCC and other co-op grains.
at the sampled county offices were adequate.                 This investigation was conducted jointly with the FBI.

Thirty Individuals Arrested and Three Sentenced to           Father and Sons Plead Guilty to Conversion of FSA
Long Jail Terms for Victimizing Farmers; $1 Million          Collateral
in Stolen Property Recovered
                                                             In California, a father and his two sons are awaiting
As reported in a previous period, 30 members of an           sentencing after each pled guilty to unauthorized
organized group were arrested in the Dayton, Ohio,           disposition of Government collateral. The three
area for their participation in a conspiracy to steal farm   individuals had originally been indicted for conspiracy to
equipment and other items from farmers in Ohio,              make false statements to FSA officials in conjunction
Kentucky, and Indiana. Beginning in July 2000, the OIG       with a $200,000 operating loan but pled guilty to lesser
case agent and other members of the Organized Crime          charges as part of a plea agreement. Our investigation
Investigations Commission Task Force 00-3 infiltrated        disclosed that, in 1994, the father received a settlement
this criminal organization. The investigation found that     from USDA on a $100,000 loan by falsely stating that he
the criminal organization was responsible for more than      had transferred his interest in the family farm to his two
$5 million in farm-related or rural property thefts. The     sons. The two sons later applied for and received a
task force has now recovered more than $1 million            $200,000 operating loan by falsely stating that their
worth of the stolen property. To date, 30 individuals        father had no interest in the farm. All three subjects
have been arrested and indicted, 23 have pled guilty,        subsequently declared bankruptcy and defaulted on
1 has been found guilty by jury trial, and 27 search         their loans.
warrants have been executed. The top three ringleaders
have been sentenced to jail terms of 9 years, 6 years,       Farmer Convicted After 3-Day Trial
and 2 years.
                                                             A Minnesota farmer and former agribusiness radio
OIG positively identified 30 farms participating in FSA      commentator was convicted in October 2001 of
programs that this criminal organization victimized in 12    converting more that $400,000 in grain that secured
counties in Ohio, 5 counties in Indiana, and 1 county in     loans he had received from USDA through CCC. During
Kentucky. Property stolen included tractors,                 a 3-day trial, the Government showed the farmer had
automobiles, generators, tools, weapons, and all-terrain     illegally sold grain securing his loans. In response, the
vehicles. Much of the stolen property was collateral for     farmer said that, because he was known widely in the
farm-owned property or operating loans and/or business       agribusiness community, his conversion of the grain
and industry loans.                                          would draw attention to what he believed to be a
                                                             problem with farm policy. However, under cross-
The task force consists of agents and officers from OIG,     examination, the farmer acknowledged he decided to
the National Insurance Crime Bureau, the FBI, and            protest the farm policy only after receiving his last loan
several Ohio law enforcement agencies: the                   from CCC. He went on to admit that he used the
Montgomery County Sheriff’s Office, the Centerville          proceeds from the sale of Government collateral to pay
Police Department, the Miamisburg Police Department,         personal bills and made no effort to publicize his
the Moraine Police Department, and the Dayton Police         protest. Sentencing is pending.
Department. Numerous other law enforcement agencies
are supporting the task force.
                                                              FOREIGN AGRICULTURAL SERVICE (FAS)
Former Co-Op Manager Convicted of Embezzlement
                                                             FAS represents the interest of U.S. farmers and the
The former manager of a farm cooperative in Oklahoma         food and agricultural sector abroad. Most notably, it
was convicted of embezzling co-op funds that included        seeks improved market access for U.S. products,
CCC-owned grain proceeds and was sentenced to 70             carries out food aid and market-related technical
months in Federal prison and ordered to pay restitution      assistance programs, and mobilizes expertise for
of $2.1 million. He created a fictitious vendor, issued      agriculturally led economic growth in developing
more than $2 million in co-op checks to this entity from     nations.
March 1997 to December 1999, and used “arbitrage

22
Four Convicted in False Export Diversion Scheme                 essential cost data and updated indirect cost data. As a
                                                                result, two FS regions needed an additional $42 million.
Four individuals in New Jersey pled guilty to felony            As of May 25, 2001, FS reported that all its regions had
charges for their participation in export diversion             filed midyear funding requests for an additional $80
schemes negatively affecting the Sugar To Be Re-                million. The FS Chief directed regional foresters to
Exported in Sugar- Containing Product Program. In this          develop contingency plans that could include delaying
case, in the mid-1990s, the four individuals and others         the acquisitions of equipment or postponing the hiring of
participated in a scheme to buy sugar-containing                firefighting personnel. On November 2, 2001, FS
products at the discounted price by fraudulently                reported that the FY 2001 fire season provided savings
representing that the products were for export and had          in fire preparedness that offset the shortfall. Although
been exported. In fact, the products were never                 FS was unable to reach its most efficient level in
exported and were sold to retailers and wholesalers in          FY 2001, actions are being taken to reach that goal in
the United States. The participants in the scheme               2002.
pocketed the difference between the discounted price
fraudulently obtained from the manufacturers and the
higher price the goods went for on the U.S. market. FAS
officials have revoked over 1.4 million pounds’ worth of
sugar credits valued at nearly $145,500. Sentencing is
pending.


 NATURAL RESOURCES AND ENVIRONMENT


 FOREST SERVICE


FS has the responsibility for providing leadership in the
protection, management, and use of the Nation’s forests
and grasslands on public and private lands. The FY
2002 budget for FS is projected at $4.9 billion, while
receipts generated through timber sales and other               Firefighters retreating from wildfire. FS photo.
activities are estimated at about $598 million.

Deficiencies Identified During FS Implementation of             The FS Washington office had not established controls
the National Fire Plan                                          to ensure that National Fire Plan funds were used to
                                                                rehabilitate and restore areas burned by the wildfires of
Prompted by the extensive summer wildfires, on                  2000. During our review in the northern region, we
September 8, 2000, the Secretaries of Agriculture and           questioned the propriety of using approximately $2.5
the Interior issued a report known as the National Fire         million of rehabilitation and restoration program funds to
Plan, which provided the overall framework for                  plan commercial timber sales, administer mushroom
implementing fire management and forest health                  harvests, and rehabilitate and restore areas burned in
programs. In October 2000, $1.1 billion in additional           1998. FS regions had proposed 582 restoration projects
funding for FS was approved to implement the National           nationwide totaling $260 million, far in excess of the
Fire Plan. This more than doubled the FS firefighting           $142 million appropriated in FY 2001. Any funds put to
budget to over $2 billion.                                      improper uses will reduce FS’s ability to restore and
                                                                rehabilitate areas burned by the wildfires of 2000.
Our review was conducted from April 1 through August
2001 and determined that FS would not achieve its               FS generally concurred with our recommendations and
most efficient level for firefighting because initial funding   stated that it plans to clarify the project selection criteria
estimates were underestimated. The system used to               to address our concerns and institute a review process
make the estimated funding needs did not have all the           to ensure that only those projects that meet the criteria
                                                                are approved and implemented.

                                                                                                                            23
FS Oversight Over Land Exchanges Was Effective             such as the Conservation Reserve Program, during
                                                           periods covered by State easements. The situation
We continued to review the progress that FS has made       prevented FSA from identifying and resolving any
in strengthening its controls over the land exchange       associated acreage differences. Our fieldwork was
program. From June through October 2001, we audited        conducted in August and September 2000.
the operations of the National Land Adjustment
Oversight Team (NLAT) in reviewing land exchange           We recommended that FSA direct State offices to
transactions. NLAT was created by the FS Washington        provide feedback where NRCS was not fulfilling its
office in response to our prior audits, which disclosed    status review responsibilities. This included exploring
large land exchange transactions in two regions that did   alternatives for ensuring compliance with this program
not comply with laws and regulations and had               requirement. We also recommended that FSA assess
questionable appraisals.                                   the need to require participating State entities to furnish
                                                           data on the location and length of State easements in
We reviewed 12 pending and approved land exchange          conjunction with CREP. This included directing the
transactions, valued at over $45 million, that were        Illinois State office to correct cited acreage differences.
reviewed by NLAT in 3 regions. We found examples in
all three regions where the NLAT review was effective in   FSA agreed and intends to strengthen the status review
preventing questionable land exchange transactions         provisions in its technical assistance reimbursable
from proceeding through the approval process. Our          agreement with NRCS for FY 2002. FSA will begin a
review concluded that the NLAT review was an effective     process to track, monitor, and evaluate all status
control to ensure that land exchange transactions were     reviews in FY 2002. FSA is willing to work with its State
consistent with national standards and that the public’s   CREP partners to request that they provide aerial
interests were protected. Its effectiveness would be       photography and a timeframe for their easement
enhanced if updates and revisions to existing              agreements to the administering county FSA office. FSA
landownership policies and procedures, drafted by FS in    will issue a notice in August 2002 to ensure that any
response to our prior audits, were finalized in the FS     differences between FSA acreages and land survey
manual and handbook.                                       measurement acreages are handled consistently.

 NATURAL RESOURCES CONSERVATION                             RURAL DEVELOPMENT
 SERVICE (NRCS)

                                                            RURAL BUSINESS-COOPERATIVE SERVICE
NRCS provides technical assistance through local
                                                            (RBS)
conservation districts to individuals, communities,
watershed groups, and tribal governments, as well as
Federal, State, and local agencies. The agency’s work      RBS enhances the quality of life for rural residents
focuses on erosion reduction, water quality                through grants or loans to rural-based cooperatives and
improvements, wetlands restoration and protection, fish    businesses and through partnerships with rural
and wildlife habitat improvement, range management,        communities. RBS national staff and Rural
stream restoration, and water management.                  Development State office staff promote stable business
                                                           environments in rural America through financial
Additional CREP Controls Needed                            assistance, business promotion, and technical
                                                           assistance, as well as research, education, and
In some instances, NRCS was not completing some of         information.
the annual status reviews on Conservation Reserve
Enhancement Program (CREP) contracts as required,          Ongoing Work in the B&I Loan Program is
so FSA did not have reasonable assurance that              Uncovering Significant Management Control
conservation plans were being timely or properly           Weaknesses
applied. FSA also had not established requirements to
ascertain acreages enrolled under associated State         Our ongoing reviews in 12 States covering FYs 1997 to
easements. This could result in the improper enrollment    2001 have disclosed serious management control
of such acreages in other available Federal programs,      weaknesses that are resulting in significant monetary

24
losses to the Business and Industry (B&I) Loan               acquaintance to develop a water-testing project without
Program. RBS lacks effective controls to ensure that (1)     the knowledge of the board members. The project cost
collateral is properly valued and secured, (2) financially   EZ over $16,000 and turned out to be useless. Overall,
troubled borrowers do not receive loan funds, and (3)        the EZ Director diverted and mismanaged over $34,000
loan funds are used only for authorized purposes. We         of EZ funds.
attribute this to inadequate appraisals of collateral,
inaccurate feasibility studies, improper financial and       Rural Development agreed with our recommendations
credit analyses, and a lack of followup to verify and        to improve the EZ’s conflict-of-interest policy. However,
inspect collateral. We have questioned almost                it did not agree with our recommendation to recover the
$29 million in loan losses so far, and recommended the       $34,000 from the EZ Director as his employment with
recovery of over $18 million of those funds.                 EZ had been terminated.

RBS suspended the State Director’s loanmaking
                                                              RURAL HOUSING SERVICE (RHS)
authority in one State after we reported serious
deficiencies in a Management Alert to the Administrator.
In another State, RBS incurred almost $2 million in          RHS is responsible for making available decent, safe,
unnecessary losses because the lender had not                sanitary, and affordable housing and community
adequately secured the collateral for two loans. The two     facilities through loans and grants for rural single-family
borrowers had disposed of the collateral without the         housing, apartment complexes, fire stations, libraries,
knowledge or approval of the lender or RBS. We are           hospitals, and clinics. For FY 2001, program funding for
planning to recommend measures that will improve the         RHS loans and grants totaled $6.6 billion.
effectiveness of existing management controls in the
loanmaking and servicing processes. We will also be          Apartment Manager Sentenced for Converting
proposing additional management controls that will           Escrow Funds
improve the integrity of the B&I Loan Program.
                                                             A Missouri man pled guilty and was sentenced to serve
Empowerment Zone Officials Violated Conflict of              18 months in prison and pay nearly $220,000 in
Interest Policy                                              restitution for converting funds belonging to the Rural
                                                             Development-funded apartment complexes he
Several board members of one Kentucky Empowerment            managed. He had been indicted on 15 counts, including
Zone (EZ) violated conflict-of-interest policy by not        mail fraud, false statements, and embezzlement. From
disclosing employment or business relationships with a       1995 to 2000, the man converted $225,000 in reserve
company that benefited from EZ funds. For example,           account funds to his own use, primarily to support a
one board member did not reveal to other EZ board            gambling habit. In an effort to feign the existence of
members that he had obtained employment at a                 reserve funds, the man counterfeited certificates of
processing company that subsequently benefited from          deposit and provided copies to RHS.
$475,000 in EZ funds. In that case, the EZ funds were
disbursed for a water project that would benefit the         Resident Manager Pleads Guilty to Equity Skimming
hayfield operation of the processing company where the
EZ board member had just gained employment. Another          In FY 1998, OIG and Rural Development began a joint
EZ board member’s company entered into a $485,000            review of the Multi-Family Housing (Section 515)
laundry contract with the same processing plant that         Programs nationwide. After an audit revealed financial
had received EZ funds. Our audit covered the period          discrepancies in a project in Canton, Mississippi, our
1999 to January 2001.                                        investigation showed that the resident manager had
                                                             submitted false and inflated invoices to Rural
An EZ Director diverted Government funds to himself          Development for maintenance. Not only was the
that should have benefited EZ. The Director worked on        resident manager part owner of the project, but he also
a U.S. Department of Labor (DOL) initiative for which        owned the maintenance company. From May 1996 to
DOL agreed to reimburse EZ for the Director’s time.          December 1997, he forged 194 checks worth more than
However, when EZ was reimbursed, the EZ Director             $123,000. Sentencing is pending after the resident
subsequently withdrew the funds from the EZ account          manager pled guilty to equity skimming.
and paid himself. The same Director also hired an

                                                                                                                      25
The resident manager at this project pled guilty to equity skimming (see previous page). OIG photo.




 RESEARCH, EDUCATION, AND ECONOMICS                                         41 months’ imprisonment, followed by 3 years’
                                                                            supervised release. She was also ordered to pay more
                                                                            than $715,000 in restitution to CSREES and $11,000 in
 COOPERATIVE STATE RESEARCH,                                                restitution to a bank. The employee issued
 EDUCATION, AND EXTENSION SERVICE                                           approximately $715,000 worth of checks to herself, her
 (CSREES)                                                                   creditors, and her limited liability corporation, a male
                                                                            dance troupe, from February 1996 through July 2001.
                                                                            Through her position as accounting and personnel
The mission of CSREES is to benefit people,                                 manager, the employee generated the fraudulent
communities, and the Nation through cooperative work                        checks and forged the signatures of persons who had
with agency partners and customers to advance                               signatory authority for the nonprofit agency’s accounts.
research, extension, and higher education in the food                       While on bond pending sentencing, she worked for
and agricultural sciences and related environmental and                     another company and forged signatures on $6,000
human sciences.                                                             worth of that company’s checks. Her bond was revoked,
                                                                            and she was arrested.
Woman Sentenced for Stealing More Than $715,000
in USDA Funds

An employee of a nonprofit organization in Atlanta,
Georgia, which received funding through CSREES, pled
guilty to fraud in January 2001 and was sentenced to




26
Statistical Data


 AUDITS WITHOUT MANAGEMENT DECISION
The following audits did not have management decisions made within the 6-month limit imposed by Congress.
Narratives for new entries follow this table. An asterisk (*) indicates that an audit is pending judicial, legal, or
investigative proceedings that must be completed before the agency can act to complete management decisions.


 New Since Last Reporting Period


                                                                                                          Amount With
                                                                                    Total Value             No Mgmt.
                                                                                    at Issuance             Decision
Agency             Date Issued                        Title of Report               (in dollars)           (in dollars)

FNS                   05/11/01                    1. NSLP - Food                     3,572,137              3,572,137
                                                     Service Management
                                                     Companies
                                                     (27601-12-KC)*

                      09/06/01                    2. NSLP - Food                     3,537,912              3,198,926
                                                     Service Management
                                                     Companies - MWR
                                                     (27601-24-Ch)*

FS                    05/04/01                    3. FY 2000 FS Financial     1,305,600,000            1,305,600,000
                                                     Statements (08401-11-At)

                      05/29/01                    4. Northeastern Research           2,388,107              2,046,566
                                                     Station Accounting for
                                                     Timber Sales (08007-1-At)

FSA                   05/24/01                    5. FSA Payment Limitations -                0                        0
                                                     Majority Stockholders of
                                                     Corporations (03099-27-Te)

                      07/30/01                    6. 1999 Crop Disaster Program        950,891                950,891
                                                     (03099-42-KC)

Multiagency           07/11/01                    7. FY 2000 NFC Review of                    0                        0
                                                     Internal Controls
                                                     (11401-7-FM)

RBS                   08/31/01                    8. Lender Servicing of B&I         2,350,965              2,350,965
                                                     Guaranteed Loans - State
                                                     of Arizona, Lender A
                                                     (34601-2-SF)

                      09/12/01                    9. Lender Servicing of B&I         2,365,000              2,365,000
                                                     Guaranteed Loans - State
                                                     of Arizona, Lender B
                                                     (34601-4-SF)

                                                                                                                           27
                                                                                                        Amount With
                                                                                    Total Value           No Mgmt.
                                                                                    at Issuance           Decision
Agency             Date Issued                       Title of Report                (in dollars)         (in dollars)

                     09/14/01                    10. B&I Loan Program,            4,052,351               4,052,351
                                                     Omnivest Resources, Inc.,
                                                     Fort Gaines, GA (34099-2-At)

RHS                  09/28/01                    11. RRH Program, Insurance            596,665              562,515
                                                     Expenses - Phase II
                                                     (04601-4-KC)

RMA                  05/21/01                    12. Review of Written               1,565,730            1,565,730
                                                     Agreements (05002-1-Te)

                     08/15/01                    13. Indemnity Payments to Prune         7,182                7,182
                                                     Producers in California -
                                                     Producer B (05099-5-SF)

                     08/17/01                    14. RMA Watermelon Claims       1,506,620                1,506,620
                                                     in South Texas (05601-7-Te)


 Previously Reported but Not Yet Resolved


These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous Semiannual
Reports to Congress. Agencies have been informed of actions that must be taken to reach management decision, but,
for various reasons, the actions have not been completed. The appropriate Under and Assistant Secretaries have
been notified of those audits without management decisions.

ARS                  02/08/99                    15. Audit of J.A. Jones               160,233              160,233
                                                     Management Services,
                                                     CY 1994 and 1995
                                                     (02017-4-At)

Civil Rights         09/30/98                    16. Evaluation of CR Efforts                 0                    0
                                                     To Reduce Complaints
                                                     Backlog (60801-1-HQ)

                     03/24/99                    17. Evaluation of CR Management              0                    0
                                                     of Settlement Agreements
                                                     (60801-2-HQ)

                     03/10/00                    18. Office of CR Management of               0                    0
                                                     Employment Complaints
                                                     (60801-3-HQ)

                     03/10/00                    19. Status of Implementation of              0                    0
                                                     Recommendations Made in
                                                     Prior Evaluations of Program
                                                     Complaints (60801-4-HQ)
28
                                                                                 Amount With
                                                                  Total Value      No Mgmt.
                                                                  at Issuance      Decision
Agency        Date Issued            Title of Report              (in dollars)    (in dollars)

CSREES          03/27/97    20. Use of 4-H Program Funds -             5,633              0
                                University of Illinois
                                (13011-1-Ch)

FNS             03/22/00    21. CACFP - National Initiative          319,279              0
                                To Identify Problem Sponsors -
                                Wildwood (27010-3-KC)

FS              03/31/97    22. Research Cooperative and             468,547       468,547
                                Cost Reimbursable Agreements
                                (08601-18-SF)

                09/24/98    23. Assistance Agreements              7,098,026              0
                                to Nonprofit Organizations
                                (08801-2-Te)

FSA             09/28/95    24. Disaster Assistance Payments,      1,805,828      1,672,929
                                Lauderdale, TN (03006-4-At)

                01/02/96    25. 1993 Crop Disaster                 2,469,829      2,203,261
                                Payments Brooks/
                                Jim Hogg, TX
                                (03006-1-Te)

                05/02/96    26. Disaster Assistance Program -      2,177,640      2,145,533
                                1994, Thomas County, GA
                                (03006-13-At)*

                03/30/99    27. Payment Limitation - Mitchell        881,924       881,924
                                County, GA
                                (03006-20-At)

                08/22/00    28. LaFlore County FSA                   228,764       228,764
                                Office Disaster Programs
                                (03006-20-Te)*

FSIS            06/21/00    29. Implementation of the Hazard                0             0
                                Analysis and Critical Control
                                Point System (24001-3-At)

                06/21/00    30. Imported Meat and Poultry                   0             0
                                Inspection Process (24088-3-Hy)

Multiagency     09/30/98    31. CSREES Managing Facilities         3,824,211      2,651,292
                                Construction Grants
                                (50601-5-At)



                                                                                              29
                                                                                  Amount With
                                                                   Total Value      No Mgmt.
                                                                   at Issuance      Decision
Agency        Date Issued            Title of Report               (in dollars)    (in dollars)

                03/31/99    32. Private Voluntary                  18,629,558     18,501,064
                                Organization Accountability
                                (50801-6-At)

                09/28/00    33. Crop Loss Disaster                 10,728,872      1,660,630
                                Assistance Program
                                (50801-3-KC)

NRCS            03/31/00    34. NRCS Contracting,                     784,562       264,434
                                Procurement, and Disbursement
                                Activities (10601-1-Te)*

OCIO            03/03/01    35. Security Over USDA IT                        0             0
                                Resources Needs Improvement
                                (50099-27-FM)

RBS             10/01/99    36. Business and Industry Loan -          595,511       595,511
                                Indiana Farms (34099-3-Ch)

                07/11/00    37. Rural Business Enterprise           1,620,256      1,620,256
                                Grant - Vivero Caimito Project
                                (34004-4-Hy)

Rural           02/01/99    38. FY 1998 Rural                    9,529,862,000             0
Development                     Development Financial
                                Statements (50401-28-FM)

RHS             01/08/99    39. RRH Program - Dujardin                195,694       195,694
                                Property Management, Inc.,
                                Everett, WA (04801-5-SF)*

                03/25/99    40. Guaranteed Rural Housing          139,220,122       215,030
                                Loan Program (04601-2-At)

                04/20/99    41. RRH Program - Owner/                  346,685       346,685
                                Manager, Olympia, WA
                                (04801-6-SF)*

                05/25/00    42. RRH Nationwide Initiative           4,922,879       483,288
                                in MO, St. Louis, MO
                                (04801-2-KC)

                12/18/00    43. RRH Program Insurance                 924,751       924,751
                                Expenses, MS (04801-6-KC)

RMA             09/30/97    44. Crop Insurance on Fresh            15,082,744              0
                                Market Tomatoes
                                (05099-1-At)
30
                                                                        Amount With
                                                         Total Value      No Mgmt.
                                                         at Issuance      Decision
Agency   Date Issued            Title of Report          (in dollars)    (in dollars)

           12/16/98    45. Crop Insurance on              3,963,468      3,676,476
                           Nurseries (05099-2-At)*

           03/30/00    46. FY 1999 FCIC Financial                  0             0
                           Statements (05401-8-FM)

           02/28/01    47. FY 2000 FCIC Financial                  0             0
                           Statements (05401-2-Hq)

           03/12/01    48. RMA/FCIC FY 2000
                           Financial Statements,
                           Report on Management Issues             0             0
                           (05401-2-Hq)

           03/14/01    49. Crop Insurance for             2,254,014      2,254,014
                           Specialty Crops
                           (05601-4-At)




                                                                                     31
 Audits Without Management Decision - Narrative for New Entries




1. NSLP - Food Service Management Companies,                 4. Northeastern Research Station Accounting for
   Issued May 11, 2001                                          Timber Sales, Issued May 29, 2001

FNS should advise the State agency to require school         We recommended FS award and administer timber
food authorities to take corrective actions on the food      sales for the Fernow Experimental Forest through the
service management company reviewed; however,                Monongahela National Forest. We also recommended
because we referred the company for investigation,           FS pay $341,541 to the State of West Virginia for
these actions cannot begin until authorized. FNS is          receipts collected between 1988 and 1999 and return to
working with the State agency to obtain corrective           the Treasury $2,046,566 for timber sale proceeds
action on all the recommendations.                           retained by the station. We recommended FS consult
                                                             with the Department’s Office of the General Counsel
2. NSLP - Food Service Management Companies –                (OGC) to determine if augmentation of appropriation
   Midwest Region, Issued September 6, 2001                  had occurred. FS agreed with our first recommendation
                                                             to pay $341,541 to the State of West Virginia. FS has
We recommended that the FNS regional office, in              agreed to take corrective action on money retained by
conjunction with OIG Investigations, work with one of its    the station depending upon the outcome of OGC’s
State agencies to collect $236,749 from a food service       determination. We are awaiting a further reply from FS.
management company for costs charged to schools,
which exceeded actual costs. We also recommended             5. FSA Payment Limitations - Majority
that the regional office work with OIG Investigations and       Stockholders of Corporations,
the U.S. attorney’s office to collect over $2.9 million         Issued May 24, 2001
from another management company, representing the
value of USDA-donated commodities not credited to the        We found about 36 percent of majority stockholders and
schools. In both instances, the intent of the                their corporations were not combined as required in
recommendations was to pass the collected funds back         FSA’s automated system to be one “person” for 1998
through to the affected schools for use in their food        and/or 1999 payment limitation purposes. We
service programs. FNS has agreed to take the                 recommended FSA program its automated system to
recommended actions but cannot do so during the              combine majority stockholders with their corporations in
ongoing investigations.                                      the combined producer account file. In the interim, we
                                                             recommended FSA generate and send monthly
3. FY 2000 FS Financial Statements, Issued May 4,            exception/error (not combined) reports to county offices
   2001                                                      for corrective action and that the FSA national office
                                                             monitor the monthly corrections. FSA subsequently
Due to limitations on the scope of our audit, we were        identified and corrected such “person” determinations
unable to express an opinion on the FS financial             for the 1998 through 2001 program years.
statements. FS was unable to provide essential
information on time, and we were unable to obtain other      To reach management decision, we need assurance
sufficient competent evidential matter. FS personnel         from FSA that it will program its automated system to
have been working to improve FS accounting systems           automatically combine majority stockholders with their
and processes, and to adopt new accounting standards         corporations or, at a minimum, perform edit checks to
issued by OMB. However, much work remains,                   ensure that such person determinations are properly
including the need to ensure that (1) sufficient full-time   entered or are otherwise properly controlled. In the
staff is assigned to compile and complete the financial      interim, FSA should perform at least annual reviews and
statements timely and accurately and (2) regions and         corrections of the “person” determinations. We are
units adhere to agencywide accounting policies and           working with FSA to achieve management decision.
procedures. We continue to work closely with FS.


32
6. 1999 Crop Disaster Program, Issued July 30,               RBS national office has approved the “value in use”
   2001                                                      method only if the appraisal meets the Uniform
                                                             Standards of Professional Appraisal Practices.
We reported to FSA and RMA that some producers               However, the Rural Development State office
received excessive Crop Disaster Program benefits            determined that the appraisal did not meet these
based on inflated crop insurance indemnities. The            standards. We have recommended that RBS require the
agencies had not implemented procedures adequate to          borrower to obtain $2,350,965 of additional collateral to
notify one another of corrections to, or flaws in, records   secure the loan.
common to the crop insurance and disaster programs.
FSA amended its procedures to change data when               9. Lender Servicing of B&I Guaranteed Loans -
provided corrected information by RMA and to provide            State of Arizona, Lender B, Issued
to RMA corrected program information resulting from             September 12, 2001
FSA reviews. RMA has not provided an official written
response to the report.                                      The lender had been negligent in servicing the
                                                             guarantee loan by not ensuring that proper inspections
In order to reach management decision, we need               were performed on a hotel financed with RBS’s
documentation that RMA has implemented procedures            guaranteed loan. Further, the lender had not ensured
reciprocal to those implemented by FSA. The agencies         that the contractor completed construction according to
should also collect excessive disaster and crop              building plans. The borrower’s independent engineer,
insurance benefits identified by the audit. We continue      retained to pursue legal action, determined the hotel
to work with the agencies to resolve these issues.           would never receive a certificate for safe occupancy and
                                                             should be razed. We have recommended that RBS
7. FY 2000 NFC Review of Internal Controls, Issued           rescind the $2,365,000 loan guarantee.
   July 11, 2001
                                                             10. B&I Loan Program, Omnivest Resources Inc.,
Our review resulted in a qualified opinion. We noted that        Fort Gaines, GA, Issued September 14, 2001
actions taken by OCFO were sufficient to reduce the
risk associated with several previously reported             We reviewed the loan at Rural Development’s request
weaknesses; however, other prior material control            because the borrower had defaulted less than a year
weaknesses related to the legacy Central Accounting          after loan closing. We found that the lender improperly
System and its feeder systems continued to exist.            evaluated the borrower’s eligibility, inappropriately
Management decision has not been reached on one              monitored the use of loan funds, and inadequately
recommendation, which relates to the reconciliation of       serviced the loan by failing to perform servicing reviews.
FFIS to the feeder systems. Specifically, the                We identified a conflict of interest for the loan packager,
recommendation seeks that OCFO (1) ensure that               who also serviced the loan for the lender. The loan
output reports from FFIS are obtained to enable feeder       packager prepared analyses using preliminary sales
system data to be reconciled with the FFIS general           data, which it submitted to the lender. The lender then
ledger and (2) perform the reconciliations. We are           certified to Rural Development that the borrower had
continuing to work with OCFO to resolve this issue.          complied with conditions required to issue the
                                                             guarantee. We recommended Rural Development
8. Lender Servicing of B&I Guaranteed Loans -                rescind the loan guarantee, recover the $4,052,351 paid
   State of Arizona, Lender A, Issued                        when it purchased the loan guarantee from the
   August 31, 2001                                           secondary market, debar the loan packager, and
                                                             develop regulations concerning loan packagers and
The lender did not obtain sufficient collateral to protect   potential conflict of issuance issues.
the Government’s loan guarantee. The lender’s
appraisal of the collateral used a method that valued it     11. Rural Rental Housing Program, Insurance
equally with its worth to the user/owner while in                Expenses - Phase II, Issued September 28, 2001
operation and earning revenue. The initial appraisal
valued the collateral at $168,000. RBS instructed the        We determined that four of five Mississippi management
lender to use the “value in place” appraisal method,         companies excessively charged projects $596,665 for
which increased the collateral value to $3.5 million. The    unallowable insurance expenses. In some cases, the

                                                                                                                     33
management companies had close relationships with            14. RMA Watermelon Claims in South Texas, Issued
insurance vendors and violated their fiduciary                   August 17, 2001
responsibility to limit expenses to what was actual,
reasonable, and necessary. Two management                    We reviewed 13 of the 79 CY 1999 watermelon policies
companies had inflated premiums by $420,246 and              in Texas involving 11 producers that filed 18 claims
applied those funds to personal accounts. Three              totaling $20,083,215. Our audit disclosed that 5 of the
management companies improperly paid their $79,442           18 claims filed by 3 of the 11 producers did not meet
of workers’ compensation insurance expenses with             eligibility requirements for participation in the CY 1999
project funds. Three management companies paid               watermelon pilot crop insurance program. Two
$66,865 of unallowable insurance expenses, such as           producers with three claims did not meet the crop
fidelity bonds or excessive commissions. Three               eligibility requirements in that they did not have the
management companies did not timely deposit $29,133          required production experience. Also, one producer
of indemnities into project accounts. Two management         planted watermelons on land that had not been planted
companies charged projects $979 for improper                 and harvested in 1 of the previous 3 years, and another
expenses.                                                    planted watermelons on land that had been planted to a
                                                             melon crop for more than 2 consecutive crop years. As
12. Review of Written Agreements, Issued May 21,             a result, three producers received excessive indemnities
    2001                                                     of $1,506,620.

We found that a producer and his son provided                We recommended that RMA determine whether the
potentially false and misleading production history to       three producers met the applicable crop and acreage
justify their requested written agreements for potatoes in   eligibility requirements for the insured crops for
Cochran County, Texas. The producer certified to             participation in the CY 1999 pilot watermelon crop
having several years of potato production in Gains,          insurance program. If requirements were not met, we
Parmer, and Cochran Counties. However, after verifying       recommended RMA collect $1,506,620 in overpayments
his production history, we found that he misrepresented      to the producers. RMA concurred with the
his production when applying for the written                 recommendations. One of RMA’s regional compliance
agreements. We recommended that RMA take                     offices is reviewing the audit findings and is requesting
administrative action to recover crop insurance              that OGC provide an independent opinion regarding the
indemnities totaling $1,565,730 from the producers and       producers’ eligibility.
to pursue any other civil remedies that may be
appropriate. The agency has referred the case to the
U.S. attorney’s office for civil enforcement. The agency
will wait for a determination from the U.S. attorney’s
office before pursuing further administrative action.

13. Indemnity Payments to Prune Producers in
    California - Producer B, Issued August 15, 2001

We determined that the insurance provider made errors
in both the 1998 and 1999 insurance claims for
producer B. The insurance provider used an incorrect
unit structure and overstated acreages to calculate the
1998 indemnity. In calculating the 1999 indemnity, the
insurance provider understated production. As a result
of the above errors, the producer was overpaid $504 for
crop year (CY) 1998 and overpaid $6,678 for CY 1999.
We recommended RMA collect the overpayments and
instruct the provider to correct the acreage and yields.




34
 Indictments and Convictions

Between October 1, 2001, and March 31, 2002, OIG             Indictments and Convictions
completed 210 investigations. We referred 258 cases to       October 1, 2001 - March 31, 2002
Federal, State, and local prosecutors for their decision.

During the reporting period, our investigations led to       Agency Indictments Convictions*
213 indictments and 225 convictions. The period of time
to obtain court action on an indictment varies widely;       AMS                      0                       3
therefore, the 225 convictions do not necessarily relate     APHIS                    7                       3
to the 213 indictments. Fines, recoveries/collections,       ARS                      2                       2
restitutions, claims established, cost avoidance, and        CSREES                   1                       0
administrative penalties resulting from our investigations   FAS                      3                       1
totaled about $23.8 million.                                 FNS                    152                     170
                                                             FS                       3                       3
The following is a breakdown, by agency, of indictments      FSA                     20                      18
and convictions for the reporting period.                    FSIS                    14                       7
                                                             GIPSA                    0                       1
                                                             NRCS                     2                       0
                                                             RBS                      1                       0
                                                             RHS                      3                       8
                                                             RMA                      5                       9
                                                                                    ___                     ___
                                                             Totals                 213                     225

                                                             *This category includes pretrial diversions.




                                                                                                                  35
  Office of Inspector General Hotline

 The OIG Hotline serves as a national receiving point for
 reports from both employees and the general public of
 suspected incidents of fraud, waste, mismanagement,
 and abuse in USDA programs and operations. During
 this reporting period, the OIG Hotline received
 1,096 complaints, which included allegations of
 participant fraud, employee misconduct, and
 mismanagement, as well as opinions about USDA
 programs. Figure 1 displays the volume and type of the
 complaints we received, and figure 2 displays the
 disposition of those complaints.




 Figure 1                                                   Figure 2

 Hotline Complaints                                         Disposition of Complaints
 October 1, 2001, to March 31, 2002                         October 1, 2001, to March 31, 2002
 (Total = 1,096)
                                                                                    Referred to
                                                Bribery         Referred to       USDA Agencies
                                                   6          FNS for Tracking     for Response     Referred to
                       Participant                                  268                 419        State Agency
                         Fraud                                                                          93
                          661




    Waste/
                                               Health/
Mismanagement
                                  Opinion/     Safety         Referred to
     137      Employee          Information      23         USDA or Other                             Referred to
            Misconduct               86                      Agencies for Filed Without Referred to Other Law
                183
                                                             Information-    Referral-  OIG Audit or Enforcement
                                                            No Response Insufficient Investigations Agencies
                                                               Needed      Information for Review         2
                                                                 227            41          46




 36
 Freedom of Information Act (FOIA) and Privacy Act (PA) Requests for the Period October 1,
 2001 to March 31, 2002


Number of FOIA/PA Requests Received                 151

Number of FOIA/PA Requests Processed:               149

  Number of Requests Granted in Full 35
  Number of Requests Granted in Part 49
  Number of Requests Not Granted     44

Reasons for Denial:

  No Records Available                   13
  Requests Denied in Full                17
  Referrals to Other Agencies            20

Requests for OIG Reports From Congress
and Other Government Agencies

  Received                               38
  Processed                              41

Appeals Processed                                     4

  Appeals Completely Upheld               3
  Appeals Partially Reversed              1
  Appeals Completely Reversed             0

Number of OIG Reports/Documents                     82
Released in Response to Requests


NOTE: A request may involve more than one report.

During this 6-month period, 34 audit reports were
published on the Internet at the OIG Web site:
www.usda.gov/oig.




                                                                                             37
Appendix I


                                    INVENTORY OF AUDIT REPORTS ISSUED
                                     WITH QUESTIONED COSTS AND LOANS
                                 BETWEEN OCTOBER 1, 2001, AND MARCH 31, 2002


                                                                             DOLLAR VALUES

                                                              QUESTIONED             UNSUPPORTEDa
                                                  NUMBER    COSTS AND LOANS         COSTS AND LOANS

A. FOR WHICH NO MANAGEMENT                            55      $213,449,337            $50,509,289
   DECISION HAD BEEN MADE
   BY OCTOBER 1, 2001

B. WHICH WERE ISSUED DURING                           14        57,319,801             36,923,095
   THIS REPORTING PERIOD

      TOTALS                                          69      $270,769,138            $87,432,384

C. FOR WHICH A MANAGEMENT                             24
   DECISION WAS MADE DURING
   THIS REPORTING PERIOD

      (1) DOLLAR VALUE OF
          DISALLOWED COSTS

         RECOMMENDED FOR RECOVERY                               $8,764,149              $123,162

         NOT RECOMMENDED FOR RECOVERY                          $84,719,130              $126,707

      (2) DOLLAR VALUE OF                                       25,422,057              2,144,632
          COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT                            45       152,787,145             85,037,883
   DECISION HAS BEEN MADE BY
   THE END OF THIS REPORTING
   PERIOD

      REPORTS FOR WHICH NO                            34       100,139,829             48,114,788
      MANAGEMENT DECISION WAS
      MADE WITHIN 6 MONTHS
      OF ISSUANCE

a
    Unsupported values are included in questioned values.




38
Appendix II


                          INVENTORY OF AUDIT REPORTS ISSUED
                 WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                       BETWEEN OCTOBER 1, 2001, AND MARCH 31, 2002


                                    NUMBER      DOLLAR VALUE

A. FOR WHICH NO MANAGEMENT            14          $161,239,622
   DECISION HAD BEEN MADE
   BY OCTOBER 1, 2001

B. WHICH WERE ISSUED DURING            8            24,485,728
   THE REPORTING PERIOD

TOTALS                                22          $185,725,350

C. FOR WHICH A MANAGEMENT              8
   DECISION WAS MADE DURING
   THE REPORTING PERIOD

  (1) DOLLAR VALUE OF                              $22,055,018
      DISALLOWED COSTS

  (2) DOLLAR VALUE OF                                 257,049
      COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT            14           163,424,541
   DECISION HAS BEEN MADE BY
   THE END OF THE REPORTING
   PERIOD

  REPORTS FOR WHICH NO                 8           141,379,109
  MANAGEMENT DECISION WAS
  MADE WITHIN 6 MONTHS
  OF ISSUANCE




                                                                        39
Appendix III


                                 SUMMARY OF AUDIT REPORTS RELEASED
                              BETWEEN OCTOBER 1, 2001, AND MARCH 31, 2002

DURING THE 6-MONTH PERIOD BETWEEN OCTOBER 1, 2001, AND MARCH 31, 2002, THE OFFICE OF
INSPECTOR GENERAL ISSUED 49 AUDIT REPORTS, INCLUDING 4 PERFORMED BY OTHERS.

THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:

                                                             QUESTIONED    UNSUPPORTEDa    FUNDS BE
                                                 AUDITS        COSTS          COSTS         PUT TO
AGENCY                                          RELEASED     AND LOANS      AND LOANS     BETTER USE

AGRICULTURAL MARKETING SERVICE           1
AGRICULTURAL RESEARCH SERVICE            1
FARM SERVICE AGENCY                      2
RURAL HOUSING SERVICE                    5                     $171,569
RISK MANAGEMENT AGENCY                   2
COMMODITY CREDIT CORPORATION             1                                                   $19,586
FOREST SERVICE                           6                    $2,566,899
NATURAL RESOURCES CONSERVATION
    SERVICE                              1
OFFICE OF THE CHIEF FINANCIAL OFFICER    2
RURAL TELEPHONE BANK                     1
NATIONAL AGRICULTURAL STATISTICS SERVICE 1
FOOD AND NUTRITION SERVICE              10                   $37,648,131    $36,923,095   $16,970,411
RURAL BUSINESS-COOPERATIVE SERVICE       7                   $16,669,202                   $7,455,435
MULTIAGENCY                              3
RURAL DEVELOPMENT                        6                     $264,000                      $40,296

TOTALS                                              49       $57,319,801    $36,923,095   $24,485,728

TOTAL COMPLETED:
  SINGLE AGENCY AUDIT                               45
  MULTIAGENCY AUDIT                                  3
  SINGLE AGENCY EVALUATION                           1
  MULTIAGENCY EVALUATION                             0

TOTAL RELEASED NATIONWIDE                           49

TOTAL COMPLETED UNDER CONTRACTb                          4

TOTAL SINGLE AUDIT ISSUEDc                               0

a
  Unsupported values are included in questioned values
b
  Indicates audits performed by others
c
 Indicates audits completed as Single Audit




40
                            AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                   BETWEEN OCTOBER 1, 2001, AND MARCH 31, 2002

                                                                     QUESTIONED   UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                           COSTS         COSTS        PUT TO
RELEASE DATE       TITLE                                             AND LOANS     AND LOANS    BETTER USE



AGRICULTURAL MARKETING SERVICE

01-099-0001-FM SECURITY OVER INFORMATION TECHNOLOGY
2002/03/29     RESOURCES AT AMS

       TOTAL: AGRICULTURAL MARKETING SERVICE                     1

AGRICULTURAL RESEARCH SERVICE

02-099-0001-FM IT SECURITY AT THE AGRICULTURAL RESEARCH
2001/12/04     SERVICE

       TOTAL: AGRICULTURAL RESEARCH SERVICE                      1

FARM SERVICE AGENCY

03-099-0045-KC   CONSERVATION RESERVE ENHANCEMENT PROGRAM
2001/10/25       (CREP)
03-099-0047-KC   SECURITY OVER FSA/CCC INFORMATION TECHNOLOGY
2001/10/31       RESOURCES

       TOTAL: FARM SERVICE AGENCY                                2

RURAL HOUSING SERVICE

04-005-0008-SF   CITRUS MANOR DEVELOPMENT - FINANCIAL
2002/03/18       STATEMENT AUDIT FOR YEAR ENDED 12/31/01
04-005-0009-SF   PARKVIEW PROPERTIES - FINANCIAL STATEMENT
2002/03/18       AUDIT FOR YEAR ENDED 12/31/01
04-099-0002-AT   OVERSIGHT AND MONITORING OF RURAL EMPOWERMENT         $136,276
2001/11/02       ZONES/ENTERPRISE COMMUNITIES
04-099-0003-KC   2001 FINANCIAL STATEMENT FIELD CONFIRMATIONS             $874
2002/02/25       IN NEBRASKA
04-801-0010-AT   KENTUCKY HIGHLANDS EMPOWERMENT ZONE                    $34,419
2002/03/22

TOTAL: RURAL HOUSING SERVICE                                     5     $171,569

RISK MANAGEMENT AGENCY

05-099-0014-KC RMA INSURANCE SERVICE/PARTNERING EFFORTS
2002/03/15     INCLUDING MANUAL 14
05-401-0009-FM FY 2001 FCIC/RMA FINANCIAL STATEMENTS
2002/02/25

TOTAL: RISK MANAGEMENT AGENCY                                    2

COMMODITY CREDIT CORPORATION

06-401-0004-KC   CCC FISCAL YEAR 2001 FINANCIAL STATEMENTS                                          $19,586
2002/02/26

TOTAL: COMMODITY CREDIT CORPORATION                              1                                  $19,586

FOREST SERVICE

08-001-0002-HQ   FOREST SERVICE AVIATION SECURITY OVER
2002/03/29       AIRCRAFT AND AIRCRAFT FACILITIES
08-017-0003-HY   ADVERTISING COUNCIL, INC. INCURRED COST AUDIT
2001/10/18       OF FS GRANT NOS. 92-CA-149 & 97-CA-073
08-017-0010-KC   MATCOM - CONTRACT AUDIT                                $66,899
2001/11/14




                                                                                                         41
                              AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                     BETWEEN OCTOBER 1, 2001, AND MARCH 31, 2002

                                                                       QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                             COSTS          COSTS        PUT TO
RELEASE DATE        TITLE                                              AND LOANS      AND LOANS    BETTER USE

08-401-0012-AT    FY 2001 FS FINANCIAL STATEMENTS
2002/02/26
08-601-0026-SF    IMPLEMENTATION OF NATIONAL FIRE PLAN - SURVEY         $2,500,000
2001/11/26
08-601-0027-SF    REVIEW OF FS NATIONAL LANDOWNERSHIP
2002/03/28        ADJUSTMENT TEAM EFFECTIVENESS

        TOTAL: FOREST SERVICE                                      6    $2,566,899

NATURAL RESOURCES CONSERVATION SERVICE
 10-099-0001-TE SECURITY OVER INFORMATION TECHNOLOGY
 2002/02/01     RESOURCES

        TOTAL: NATURAL RESOURCES CONSERVATION SERVICE              1

OFFICE OF THE CHIEF FINANCIAL OFFICER

11-401-0009-FM REVIEW OF NFC IT APPLICATION CONTROLS
2002/03/18
11-401-0011-FM AGREED UPON PROC. RETIREMENT, HEALTH BENEFITS
2001/12/14     & LIFE INS. WITHLD. CONTRIB. SUBMITTED TO OPM

        TOTAL: OFFICE OF THE CHIEF FINANCIAL OFFICER               2

RURAL TELEPHONE BANK

15-401-0001-FM FY 2001 RTB FINANCIAL STATEMENTS
2002/02/19

        TOTAL: RURAL TELEPHONE BANK                                1

NATIONAL AGRICULTURAL STATISTICS SERVICE

26-099-0002-FM INFORMATION TECHNOLOGY SECURITY AT NASS
2002/03/25

        TOTAL: NATIONAL AGRICULTURAL STATISTICS SERVICE            1

FOOD AND NUTRITION SERVICE

 27-002-0014-CH   STATES’ OVERSIGHT OF CHILD AND ADULT CARE
2002/01/14        FOOD PROGRAM SPONSORS
 27-004-0003-AT   FLORIDA FOOD STAMP PROGRAM                                                        $15,443,610
2001/11/09
 27-010-0003-AT   NSLP PROCUREMENT PROCESS                               $408,485
2002/02/15
 27-010-0006-KC   CACFP - WILDWOOD, INC.- PHASE II                     $36,895,611   $36,895,611
2001/11/21
27-010-0008-KC    CACFP - OVERSIGHT OF CENTER                             $27,484       $27,484
2001/11/21
 27-010-0024-SF   CACFP - CRYSTAL STAIRS INC.
2002/01/09
 27-099-0016-HY   EBT SYSTEM - NEW YORK
2001/12/07
 27-099-0022-CH   CACFP - OPPORTUNITY INDUSTRIAL COUNCIL OF                $8,840                    $1,468,673
 2002/02/22       GREATER MILWAUKEE
 27-601-0011-HY   SERVICE DYNAMICS/FINE HOST FSMC                                                      $58,128
2002/03/28        NEWARK, NJ SFA
 27-601-0013-KC   NSLP FSMC CHARTWELL’S FOOD SERVICE MANAGEMENT          $307,711
2002/03/29        COMPANY

TOTAL: FOOD AND NUTRITION SERVICE                                 10   $37,648,131   $36,923,095    $16,970,411




42
                            AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                   BETWEEN OCTOBER 1, 2001, AND MARCH 31, 2002

                                                                       QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                             COSTS          COSTS        PUT TO
RELEASE DATE       TITLE                                               AND LOANS      AND LOANS    BETTER USE

RURAL BUSINESS-COOPERATIVE SERVICE

34-004-0003-CH   LENDER SERVICING OF B&I GUARANTEED LOANS, OHIO
2001/10/09
34-601-0003-AT   LENDER SERVICING OF B&I GUARANTEED LOANS                                            $1,536,060
2002/01/28
34-601-0003-SF   LENDER SERVICING OF B&I GUARANTEED LOANS -
2001/12/12       CALIFORNIA - LENDER A
34-601-0006-TE   LENDER SERVICING OF B&I GUARANTEED LOANS IN                                         $2,400,000
2001/11/02       MASSACHUSETTS
34-601-0008-TE   LENDER SERVICING OF B&I GUARANTEED LOANS -             $7,353,018                   $3,519,375
2002/02/19       SOUTH CAROLINA
34-601-0009-TE   LENDER SERVICING OF B&I GUARANTEED LOANS -             $4,000,000
2001/11/29       MAINE
34-601-0011-TE   LENDER SERVICING OF B&I GUARANTEED LOANS -             $5,316,184
2001/12/27       TEXAS

       TOTAL: RURAL BUSINESS-COOPERATIVE SERVICE                   7   $16,669,202                   $7,455,435

MULTIAGENCY

50-099-0004-HQ   USDA’S PHYSICAL CRITICAL INFRASTRUCTURE
2001/10/16       PROGRAM
50-099-0013-AT   CONTROLS OVER ACCIDENTAL AND CLANDESTINE
2002/03/29       RELEASE OF BIOHAZARDS
50-401-0043-FM   FY 2001 USDA FINANCIAL STATEMENTS
2002/02/26

       TOTAL: MULTIAGENCY                                          3

RURAL DEVELOPMENT

85-401-0001-AT   FISCAL YEAR 2001 RURAL DEVELOPMENT FINANCIAL
2001/12/14       STATEMENT AUDIT
85-401-0001-SF   RURAL DEVELOPMENT FY 2001 FINANCIAL                     $264,000
2002/02/28       STATEMENTS
85-401-0001-TE   FISCAL YEAR 2001 RURAL DEVELOPMENT FINANCIAL
2002/02/25       STATEMENTS
85-401-0003-CH   FISCAL YEAR 2001 RURAL DEVELOPMENT FINANCIAL                                          $40,296
2001/11/28       STATEMENT AUDIT - FIELD CONFIRMATIONS
85-401-0004-CH   COMPLIANCE WITH FMFIA REQUIREMENTS
2002/03/20
85-401-0006-CH   FISCAL YEAR 2001 RURAL DEVELOPMENT FINANCIAL
2002/02/27       STATEMENT AUDIT

       TOTAL: RURAL DEVELOPMENT                                    6     $264,000                      $40,296


       TOTAL: RELEASE - NATIONWIDE                                49   $57,319,801   $36,923,095    $24,485,728




                                                                                                             43
Abbreviations of Organizations
AMS      Agricultural Marketing Service
APHIS    Animal and Plant Health Inspection Service
ARS      Agricultural Research Service
CCC      Commodity Credit Corporation
CR       Office of Civil Rights
CSREES   Cooperative State Research, Education, and Extension Service
DOL      U.S. Department of Labor
DRMO     Defense Reutilization and Marketing Office
FAS      Foreign Agricultural Service
FBI      Federal Bureau of Investigation
FCIC     Federal Crop Insurance Corporation
FNS      Food and Nutrition Service
FS       Forest Service
FSA      Farm Service Agency
FSIS     Food Safety and Inspection Service
GIPSA    Grain Inspection, Packers, and Stockyards Administration
IRS      Internal Revenue Service
NASS     National Agricultural Statistics Service
NFC      National Finance Center
NRCS     Natural Resources Conservation Service
OCFO     Office of the Chief Financial Officer
OCIO     Office of the Chief Information Officer
OGC      Office of the General Counsel
OIG      Office of Inspector General
RBS      Rural Business-Cooperative Service
RHS      Rural Housing Service
RMA      Risk Management Agency
USDA     U.S. Department of Agriculture
U.S. DEPARTMENT OF AGRICULTURE
OFFICE OF INSPECTOR GENERAL
STOP 2309
1400 INDEPENDENCE AVE., SW
WASHINGTON, DC 20250-2309




                                 www.usda.gov/oig
